<html>
<title> - FINANCIALLY REWARDING TERRORISM IN THE WEST BANK</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






            FINANCIALLY REWARDING TERRORISM IN THE WEST BANK

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 6, 2016

                               __________

                           Serial No. 114-201

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-651PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

David Pollock, Ph.D., Kaufman fellow, Washington Institute for 
  Near East Policy...............................................     5
Mr. Yigal Carmon, president and founder, Middle East Media 
  Research Institute.............................................    14
The Honorable Robert Wexler, president, S. Daniel Abraham Center 
  for Middle East Peace..........................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

David Pollock, Ph.D.: Prepared statement.........................     8
Mr. Yigal Carmon: Prepared statement.............................    16
The Honorable Robert Wexler: Prepared statement..................    27

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Daniel Donovan, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    63
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    65
The Honorable Lois Frankel, a Representative in Congress from the 
  State of Florida: Material submitted for the record............    67
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Prepared statement..................    69
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    70
 
            FINANCIALLY REWARDING TERRORISM IN THE WEST BANK

                              ----------                              


                        WEDNESDAY, JULY 6, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:13 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    The title of this hearing is ``Financially Rewarding 
Terrorism in the West Bank.''
    And as everyone here knows, last week, a 13-year-old 
Israeli-American girl was stabbed to death by a Palestinian 
terrorist while she slept in her bed. Sadly, Hallel Ariel's 
murder is only the latest attack in Israel, because since 
October there have been 250 instances of Israelis being chased 
down, shot, or stabbed. Forty have died, including former U.S. 
Army Officer Taylor Force, who was stabbed in March along an 
oceanfront boardwalk.
    While this spree of attacks continues, international 
diplomats continue to meet for a probable push at the United 
Nations this fall to impose the ``parameters'' of peace on 
Israel and the Palestinian Authority. But what on earth 
suggests that Israel has a willing partner in peace at this 
time?
    Last fall, this committee held a hearing to expose the 
Palestinian Authority's complicity in inciting violence. Israel 
is contending with a deep-seated hatred, nurtured by 
Palestinian leaders over many years in mosques, in schools, in 
newspapers, nurtured on television, on radio. As one witness 
told the committee, `` `Incitement' is the term we usually use, 
but 'hatred' is what we mean . . . teaching generations of 
Palestinian children to hate Jews by demonizing and 
dehumanizing them.''
    Take the funeral for the killer of American Taylor Force, a 
former West Point graduate, U.S. Army officer, and Vanderbilt 
student. Official PA TV glorified the terrorist, calling him 
``a Martyr'' 11 times in the broadcast I watched. A reporter 
explained that his funeral was a ``large national wedding 
befitting of Martyrs.''
    But Palestinians are lured to terrorism with more than just 
words. Since 2003, it has been Palestinian law to reward 
Palestinian prisoners in Israeli jails with a monthly 
paycheck--legislation which creates jihad. Under this act, the 
Palestinian Authority and the Palestinian Liberation 
Organization use a so-called ``martyrs' fund'' to pay the 
families of Palestinian prisoners and suicide bombers. One 
prominent Palestinian says that these inducements have become 
``sacred in Palestinian politics.''
    You know, as a member of one concerned family here today 
reminded me, these terrorists are not, in fact, lone rangers, 
they are not lone wolves acting from their independent hatred. 
Instead, these terrorists are the product of the programming 
done by the PA's perverted culture that glorifies the 
willingness to die or to spend time in prison in pursuit of 
killing or maiming Israelis. The PA programmed this hate. These 
financial rewards are the main way they accomplish this.
    And, perversely, the PA uses a sliding scale: The more the 
mayhem, the longer the jail sentence, then the greater the 
financial reward. The highest payments go to those serving life 
sentences--to those who prove most brutal. And, as we will hear 
today, the PA allots $140 million of its budget for this 
purpose. The monthly salary ranges from $364 a month for 3 
years' imprisonment to over $3,000 a month for 30 years or 
more.
    And whoever hits the bar, whoever was imprisoned for 5 
years or more--and we know what kind of attack would create 
that--that individual is entitled to permanent employment in 
what? In the PA institution itself. Again, for those who wage 
the most brutal attacks. If a Palestinian state was 
established, it is hard to see how this ``pay to slay'' policy 
wouldn't put them on the State Sponsors of Terrorism list 
today.
    With about one-third of the Palestinian Authority's budget 
financed through foreign aid, the U.S. and our European allies 
can--and must--help stop the bloodshed. So far, the 
international community has failed to effectively use its 
leverage. European donors admit they provide funding in a way 
that is impossible to track. They have nothing in their laws 
like the U.S. requirement--which the Israeli Government is now 
starting to embrace--that funding of the PA be cut by the 
amount the PA pays out for acts of terrorism. This must change. 
And if the PA's irresponsible behavior continues, the whole 
premise for funding the PA needs to be reconsidered.
    The U.S. needs to do better at bringing the parties 
together while holding the parties responsible for their 
actions. This has traditionally been our role. Unfortunately, 
in recent years, the Obama administration has been hesitant to 
hold the PA accountable--yet has consistently pressured Israel.
    It is no wonder the Palestinian Authority believes they can 
go straight to the United Nations this fall, bypassing Israel 
and bypassing bilateral negotiations. Indeed, the Obama 
administration has pointedly not ruled out allowing the U.N. 
Security Council to dictate the terms of peace negotiations. 
The United States should make it abundantly clear that we 
oppose such actions which are not based on direct negotiations 
between the parties and will use our veto and keep divisive, 
counterproductive resolutions from passing.
    We have to face reality if we are going to move peace 
forward, and we have to be honest about each actor's readiness 
to make peace. The sad truth is the Palestinian Authority has 
not prepared its citizens for peace with Israel. Quite the 
opposite. And, tragically, there will be no peace until that 
changes.
    And I now turn to the ranking member for any opening 
comments Mr. Eliot Engel of New York may have.
    Mr. Engel. Thank you, Mr. Chairman, for calling this 
morning's hearing. The threats facing Israel and the challenges 
to reaching a two-state solution are growing every day, and I 
am glad the committee is focusing on this.
    I want to thank all our witnesses, as well. Welcome to the 
Foreign Affairs Committee. We are grateful for your time and 
your expertise.
    I especially want to welcome back former Congressman Robert 
Wexler, who spent many hours on this side of the dais on the 
Foreign Affairs Committee sitting next to me. It is good to 
have you back, Robert.
    And thanks to our other witnesses, as well. Thank you for 
joining us.
    Before I start with my statement, I want to offer my 
condolences to the family of Hallel Yaffa Ariel. She was the 
young Israel girl, 13 years old, who was stabbed to death in 
her own bedroom by a 17-year-old Palestinian boy. It is just 
hard to fathom, but that is what we end up with after years and 
years of incitement to violence.
    The chairman and I have talked about this ad nauseam with 
the Palestinian leadership. Everyone will hear us. You cannot 
have incitement and expect to have peace. Young people in 
classrooms taught to hate a group of people regarded as less 
than human, this doesn't solve any problems. It is creates new 
ones, like this disgrace of this poor girl.
    Of course, when the Palestinian leadership, whether it be 
the PLO or the Palestinian Authority, sends money to convicted 
terrorists and their families, it is no wonder that individuals 
are incentivized to commit acts of violence. This culture of 
incitement must end. It is absolutely outrageous to pay cold-
blooded killers and call them martyrs. It is just disgraceful. 
At a time when U.S. money is going to the Palestinian 
Authority, for them to do this just makes you scratch your 
head. It is not acceptable, and it is not tolerable, and it 
won't be tolerated.
    Of course, the culture of incitement needs to end because 
the loss of innocent life is unacceptable, and it must end 
because violence and terrorism will never lead to a two-state 
solution. I have repeatedly said to the Palestinians they will 
never achieve their state on the backs of terrorism--just plain 
and simple. I believe they are entitled to their state in a 
two-state solution, but they will never get it if they think 
terrorism is the way to go.
    In my view, a two-state solution is the only way for Israel 
to remain both a Jewish state and a democracy, but right now a 
number of roadblocks are keeping that solution out of reach.
    First, Israel faces threats on every border. Some of 
Israel's enemies possess incredibly sophisticated missile 
systems. Others are lone-wolf terrorists carrying forward the 
recent wave of violence we have seen. With this feeling of 
being under siege, the Israeli public's confidence in a 
peaceful solution continues to erode. What else would you 
expect? The idea of living side-by-side with their Arab 
neighbors seems like a remote possibility, and this is 
precisely what the violent extremists want.
    At the same time, Israel faces mounting threats to its 
physical security. There is a growing effort to undermine 
Israel's legitimacy. The so-called BDS, Boycott Divestment and 
Sanctions, movement--shameful and disgraceful, in my opinion--
pushes Israel to make unilateral concessions outside direct 
negotiations with the Palestinians. The BDS movement is totally 
at odds with a negotiated two-state solution, which, in my 
opinion, should remain our focus.
    So how do we resume progress toward that goal? Frankly, I 
think gatherings like the Paris peace talks last month are an 
unhelpful distraction because neither the Israelis nor the 
Palestinians were involved. How can powers come together and 
think they will come up with a solution without the two parties 
at the table? It just doesn't make sense.
    The only way to have peace and settle the Palestinian 
situation is face-to-face talks between Israelis and 
Palestinians. There can be no imposition of a peace plan from 
the outside. The U.N. is a farce. Israel cannot get a fair 
hearing at the U.N. Why should Israel submit itself to such 
things? Direct negotiations between the parties. And the 
Palestinians have to understand they have to make concessions.
    I point out to people that, in the past couple of decades, 
there were two times that a two-state solution seemed like a 
possibility in terms of an agreement: Once in 2001 with Yasser 
Arafat and then in 2008 with Mahmoud Abbas. Ehud Barak was 
Prime Minister of Israel, and then Ehud Olmert was Prime 
Minister of Israel. The Israelis said, yes, they were willing 
to make painful concessions. And, at the end, ultimately, the 
Palestinians said no and backed out, because they talked about 
right of return and all kinds of other roadblocks.
    If there were two states and there is a two-state solution, 
Palestinians get the right of return to the Palestinian state, 
not to the Israel state, not to the Jewish state. And if the 
Palestinians want peace, they certainly haven't demonstrated 
it, in my opinion, at all.
    We know what the unresolved issues are: Borders, security, 
refugees, Jerusalem, and a mutual recognition of the end of the 
conflict. That would require the Palestinians to recognize 
Israel as a state for the Jewish people with equal rights for 
all its citizens, and I believe the Palestinians' refusal to do 
this is one of the main reasons there is no Palestinian state 
today.
    We also know what the pitfalls are of resuming talks. Every 
time there is a new initiative, expectations soar, and each 
time the talks fall apart, things seem to crash a little 
harder. That outcome leads to violence. Extremists find a 
louder voice, and people on both sides suffer. And it is 
interesting, every time it seems like there might be some kind 
of an agreement, you have violent terrorism to try to destroy 
it, because the terrorists don't want peace. They want to keep 
the pot stirring.
    Just look in Gaza, where Hamas has tightened its grip over 
the last decade. And let's remember that Hamas is a terrorist 
organization. Reconstruction is slowly progressing. Israel has 
expanded the fishing perimeter in the Mediterranean, granted 
thousands of work permits, and improved access to telecom 
technology. What has Hamas done? Rebuilt its terror tunnel 
network--and the chairman and I were there in those tunnels, 
and so we saw firsthand what Hamas builds--and periodically 
fire rockets and missiles into Israel, terrorizing innocent 
people, forcing them to run for their lives to the nearest 
shelter.
    In this context, I want to voice my support for a new long-
term memorandum of understanding, an MOU, between the U.S. and 
Israel. We want to stop this horrific violence, but as long as 
Israel faces these threats, we need to stand with them and help 
ensure their defense and security. I urge the administration to 
bend over backwards to negotiate an MOU with Israel that will 
let Israel keep its qualitative military edge and strengthen 
Israel against all these threats that it faces from terrorists.
    So I will wrap up by saying there aren't any easy answers. 
And, to our witnesses, we are glad to have your voices in the 
mix. I look forward to your testimony. And, again, as the 
chairman said, I agree with what he said; it is just outrageous 
to pay cold-blooded killers who murder innocent civilians and 
call them martyrs. I cannot think of anything more disgusting.
    So I look forward to the testimony of our witnesses, and I 
yield back.
    Chairman Royce. Thank you.
    This morning, we are pleased to be joined by a 
distinguished panel.
    We have Dr. David Pollock, Kaufman Fellow at the Washington 
Institute for Near East Policy. And, previously, Dr. Pollock 
served as a senior adviser for the broader Middle East at the 
State Department.
    Mr. Yigal Carmon is president and founder of the Middle 
East Media Research Institute. Prior to founding this 
organization, he was a counterterrorism adviser to two Israeli 
Prime Ministers.
    The Honorable Robert Wexler is President of the S. Daniel 
Abraham Center for Middle East Peace. Previously, Congressman 
Wexler served as a member of this committee and served in the 
House of Representatives from 1997 to 2010. He represented 
Florida's 19th District. We welcome him back to the committee.
    And so, without objection, the witnesses' full prepared 
statements will be made part of the record.
    Members here will have 5 calendar days to submit any 
statements or any questions of our witnesses or any extraneous 
material for the record.
    And we will start with Dr. David Pollock.

 STATEMENT OF DAVID POLLOCK, PH.D., KAUFMAN FELLOW, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Pollock. Thank you very much, Mr. Chairman, Ranking 
Member, honorable colleagues, and distinguished fellow 
speakers, for this opportunity to meet with you today. I am 
truly honored by it, and I greatly appreciate both this very 
prestigious forum and the significance of the issue at hand.
    But I believe if there is one thing that most Americans, 
Israelis, and Arabs would agree on today, it is that the 
Israeli-Palestinian conflict right now is not the most 
important or the most urgent conflict in the Middle East or for 
U.S. foreign policy.
    And, for that reason, I would argue that now is precisely 
the wrong time to put the Israeli-Palestinian issue near the 
top of our foreign policy priorities. And, also, I would argue 
that certain current ideas about doing that, about putting this 
issue at the top of our priorities, carry a very real, albeit 
unwitting, risk of doing more harm than good.
    I agree with the statement of the chairman and of the 
ranking member that multilateral diplomatic maneuvers, whether 
in Paris or at the United Nations, have one central and 
inescapable flaw. By definition, they encourage one or both 
parties to imagine that they can somehow avoid making 
compromises and, ultimately, peace with each other.
    This is not merely a matter of avoiding direct Israeli-
Palestinian bilateral negotiations. It is also a matter of 
avoiding responsibility for the indispensable compromises that 
would make real peace possible. And that is why, simply put, 
the Palestinian Authority has become so enamored of this 
shortcut, or escape hatch, over the past several years.
    Doing multilateral initiatives in the absence of direct 
negotiations is not, as is sometimes said, better than nothing. 
It is, in fact, worse than nothing, because it actually helps 
prevent rather than promote peace.
    Now, what I would like to do in the few minutes that I have 
left is to focus on what I believe would be some more 
constructive steps, to look forward rather than backward.
    First and most urgently, I believe the United States should 
enhance its support for Israeli-Palestinian security 
cooperation. Despite all of the incitement coming from the 
Palestinian Authority, security cooperation with Israel 
continues, and this is the bedrock of any work to stabilize the 
situation and ultimately reconcile the parties. The United 
States supports this effort, and that support, I believe, 
should not only continue but intensify.
    Second, as my colleague Dennis Ross has written recently 
and as I wrote at the Washington Institute as far back as 2008, 
I think the United States should revive a deal with Israel 
about limiting settlement activity, roughly along the lines of 
the Bush-Sharon letter and related understandings of 2005. 
Israel could announce that it will cease new construction 
beyond the security barrier, or just act in that fashion 
without a declaration, in return for a U.S. commitment to cease 
criticizing that settlement construction--that limited 
settlement construction.
    Third, the U.S. should quietly encourage Israel and the 
Palestinians to agree on new practical forms of economic 
cooperation and of people-to-people interaction, including 
interfaith Jewish-Muslim dialogue. The more these people-to-
people projects can be scaled up, the more they are likely to 
make a positive difference.
    There is currently a bipartisan bill, H.R. 1489, to create 
an international fund for precisely that purpose. I 
respectfully urge you to give this bill your full support, in 
the firm conviction that it will pay multiple dividends in the 
coming years.
    Fourth, the United States should actively explore new ideas 
for enlisting Arab backing for Israeli-Palestinian peace.
    Fifth, and finally, the United States should publicly 
support and very vocally encourage others to endorse what we 
used to call mutual and balanced but, if necessary, unilateral 
steps toward peaceful coexistence.
    Israel, for example, could stop the demolition of 
Palestinian buildings. The Palestinian Authority could stop 
referring to murderers as ``martyrs.'' The Palestinian 
Authority and Israel could endorse new programs of interfaith 
dialogue to advance tolerance, nonviolence, and peaceful 
coexistence, and so on. I would be happy during the question-
and-answer period to expand on these and other specific, I hope 
constructive ideas.
    With that, I offer my sincere thanks once again to the 
committee and to you, Mr. Chairman, for this opportunity to 
share my thoughts on this important topic. Thank you.
    [The prepared statement of Mr. Pollock follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
 
                              ----------                              

    Chairman Royce. Mr. Carmon.

 STATEMENT OF MR. YIGAL CARMON, PRESIDENT AND FOUNDER, MIDDLE 
                 EAST MEDIA RESEARCH INSTITUTE

    Mr. Carmon. Thank you, Mr. Chairman, Ranking Member, 
members of the committee.
    My testimony is dedicated to the financial support given by 
the Palestinian Authority to prisoners and to families of 
martyrs who continued their terrorist activities after the Oslo 
Accord of 1993, in which Arafat committed on behalf of the 
Palestinian people to end all forms of terrorism and, by that 
commitment, won recognition among nations.
    By providing this support at the amount of $300 million per 
year, the PLO violates Oslo, encourages terrorism. And by 
using, or misusing, actually, the money of donor countries, 
including the United States, it makes them unwittingly 
complicit to this act of supporting terrorism.
    Let me deal with the details of this support. The PA 
distributes the money through two bodies of the PLO. One is the 
Palestinian National Fund, which deals with the prisoners and 
distributes the money through another Commission for Detainees, 
and the other is the Institute for the Caring of Families of 
Martyrs.
    This support for prisoners is anchored in a series of laws 
but chiefly Law No. 14 and Law No. 19 of 2004 and Law No. 1 of 
2013. The law describes the prisoners as a fighting sector 
whose rights and the rights of their families must be assured 
without discrimination.
    What do these words mean? They mean that Hamas terrorists 
and Islamic jihad, PFLP, others, like a squad that bombed the 
cafeteria of the Hebrew U. 9 years after Oslo, in which four 
Americans were killed, will get support, like the killers of 
Taylor Force and their families. I hold in my hand documents 
which I hope to include in the testimony--we got them this 
morning--which demonstrate from PA official documents that they 
get this support.
    What are they entitled to? They get salaries, jobs, 
exemptions in education, health care, and more. Years in jails 
are calculated as years of seniority in government service, and 
priority in jobs are given to those who are personally involved 
in acts of terrorism.
    The annual amount reaches $140 million. And the 
implementation of the laws is through a series of decisions by 
the PA Government, particularly Decision 23 of 2010, which set 
the levels of salaries. As you had mentioned, Mr. Chairman, it 
is $364 per month to those who were sentenced to 3 years, up to 
$3,120 to those who were sentenced to 30 years for more brutal 
acts. There is a special supplement for Jerusalemites of $78 
per month and for Israeli Arabs at the level of $130 per month 
above the regular salary.
    They also get the money for the canteen in jail at the 
level of no less than $780,000 per year.
    At times when there is tension between the PA and the other 
organizations, President Abbas doesn't hesitate to cut them 
down, cut the salaries down. More on that you will find in my 
written testimony.
    Let me move to the issue of the families of martyrs. The 
general amount is $173 million per year. And these are 
distributed not by any specific law but by the laws that 
dominate social affairs, the conditions of the family and so 
on.
    But here again, it is--these two magic words--without 
discrimination. Namely, President Abbas and the PA claim to 
follow a peaceful political path, different than that of the 
other Palestinian organizations who followed the path of armed 
struggle and jihad. But, at the same time, they fund all those 
who follow the terrorists' violent path. It is not just about 
the incitement to violence; it is about funding it. It is about 
guaranteeing an environment supportive of terror.
    In conclusion, one can understand the PLO's commitment to 
support families of martyrs in the era before Oslo in the 
context of an overall peaceful reconciliation. But the fact 
that the PA supports those who continue terrorist activity 
after Oslo for many years now using donor countries' money is a 
basic violation of the Oslo Accords and a deliberate 
encouragement of terrorism. This is a situation the donor 
countries never meant or wanted, and it is in their hands to 
put an end to it.
    Mr. Chairman, much more details are in my written 
testimony. I wish to thank you again for this opportunity to 
present the facts of this report.
    [The prepared statement of Mr. Carmon follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
                       ----------                              

    Chairman Royce. Thank you, Mr. Carmon.
    Mr. Robert Wexler.

STATEMENT OF THE HONORABLE ROBERT WEXLER, PRESIDENT, S. DANIEL 
              ABRAHAM CENTER FOR MIDDLE EAST PEACE

    Mr. Wexler. Chairman Royce, Ranking Member Engel, members 
of the committee, thank you very much for your warm welcome.
    Israel is often coined the ``Start-Up Nation,'' 
highlighting the Jewish State's economic miracle and 
technological and scientific achievements. Just as remarkable 
is another defining characteristic: Against all odds, Israeli 
military forces have successfully defended against an onslaught 
of hostile forces since 1948.
    For those of us who are Zionists, the unprecedented 
security collaboration between the United States and Israel is 
a source of tremendous pride. The joint development of missile 
defense technologies, all-time-high intelligence-sharing, 
historic military training exercises, and the recent delivery 
of the F-35 Joint Strike Fighter all demonstrate the 
unbreakable bond between us and Israel.
    American administrations and Congress after Congress have 
ensured Israel's qualitative military advantage. Israel's 
defense and intelligence coordination with Egypt and Jordan is 
unprecedented.
    Despite these positive developments, the Middle East 
Quartet report that was released last week asserted that the 
policies of both Israelis and Palestinians have distanced a 
two-state outcome, creating a dynamic in which a one-state 
reality has taken root.
    The Quartet calls on the Palestinian Authority to stop 
incitement of violence, bolster efforts to prevent terrorism, 
and, importantly, condemn attacks against Israelis. Likewise, 
the Quartet calls on Israel to cease settlement expansion, 
transfer civilian authority to the PA in Area C of the West 
Bank, and bluntly questions Israel's long-term intentions.
    With this backdrop of despair and lack of trust on both 
sides, a stunning development has occurred. The most compelling 
group now advocating for a two-state solution is the Israel 
security establishment.
    Two weeks ago, a group of over 200 retired generals or 
equivalent rank from the Israeli Defense Forces, Mossad, Shin 
Bet, and Israel Police redirected the political discourse. 
Boldly, Israel's most patriotic soldiers cast aside the 
question of whether Israel does or does not have a genuine 
partner for peace. Rather, these security giants demand that 
Israel once again determine her own destiny.
    The Israeli plan, labeled ``Security First,'' assumes a 
two-state final status arrangement is not currently feasible. 
It is impossible to eradicate terrorism through force alone. 
Continuation of the diplomatic impasse will lead to further 
violence. And Israel is strong enough to offer an independent 
initiative that combines security, civil, economic, and 
political measures.
    In the security realm, the IDF will remain deployed in the 
West Bank until a final status arrangement is reached, and the 
security fence will be completed, enhancing security within the 
Green Line and for 80 percent of Israelis living in the West 
Bank.
    In the civil-economic realm, the welfare of Palestinians 
will be improved by establishing an international fund to 
rehabilitate Palestinian communities and increasing work 
permits.
    Importantly, the Knesset should pass an evacuation 
compensation law, encouraging settlers now living east of the 
security fence, outside the security fence, to relocate west of 
the fence. What an impactful message that would send about 
Israel intentions.
    In the political realm, Israel should accept the Arab Peace 
Initiative with adjustments to accommodate Israel's security 
and demographic needs as a basis for negotiations; acknowledge 
that Palestinian neighborhoods of east Jerusalem will be part 
of the future Palestinian state; and implement a freeze on 
settlement expansion east of the security fence, like Dr. 
Pollock mentioned.
    In Gaza, reconciliation with Turkey is an important 
opportunity to hold the ceasefire, address humanitarian needs, 
and promote economic development, including a seaport subject 
to Israeli security and PA control.
    Mr. Chairman, why have Israel's most decorated security 
officials grown frustrated with their own government's lack of 
initiative? Israel's top military minds have come to understand 
the inescapable truth that the creation of a demilitarized 
Palestinian state is not a gift to the Palestinians; rather, it 
is the only way Israel will remain a Jewish and democratic 
state.
    In conclusion, Mr. Chairman, demographic trends clarify the 
need for separation. The Jewish population from the 
Mediterranean Sea to the Jordan River is now 52 percent. In 
2020, it will be 49 percent; in 2030, only 44 percent Jewish. 
Separation into two states, following the Security First plan, 
is essential for Israel to remain a democratic, Jewish-majority 
state.
    Thank you.
    [The prepared statement of Mr. Wexler follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Chairman Royce. Thank you.
    We are going to go with a question I have to Mr. Carmon.
    The PA has, as you know, long faced a lot of criticism from 
Western governments for its policy of paying Palestinian 
prisoners or the families of prisoners in Israeli jails. And we 
here in Congress have, you know, consistently passed 
legislation over the last few years that requires restrictions 
on financial aid to the Palestinian Authority based on the 
amounts spent on these salaries.
    The problem that I want to raise is one, as you note in 
your testimony, where you say, bowing to international 
pressure, the PA stopped paying from one PA ministry, only to 
restart the payment through an arm of the PLO. And this 
duplicity was not explained to us by our Government at the time 
that we did some cross-examination on this. Now it is 
surfacing.
    Can you help walk us through that change? When was it made? 
How hard is it to track? Give us the details on what happened 
there.
    Mr. Carmon. Yes, sir.
    In May 2014, under the pressure of donor countries, the PA 
made a deliberate move of misleading those countries by 
transferring the distribution of the money that comes from the 
PA to a body of the PLO.
    It created a virtual body, I should say, called the 
Commission for Detainees and Ex-Detainees Affairs, which 
belongs to the PLO, but it was virtual in the sense that the 
offices remained the same offices; the man in charge was the 
same man, Issa Qaraqe, with a different job title; the 
supervision or oversight of the distribution of the money 
remained the same.
    And it was all in answer to this pressure which was 
specified by the minister at the time of the affairs of the 
prisoners, Mr. Ziad Abu Ein, who said we had to do it because 
of the pressure of donor countries which began different 
investigations about how we spend this money.
    So this was the idea, we pass it to the PLO. And this is 
the end of the story. They will not----
    Chairman Royce. And, as I recall, in terms of the dollar 
amount, it was precisely the same amount----
    Mr. Carmon. Absolutely.
    Chairman Royce [continuing]. To the dollar that was 
transferred.
    Mr. Carmon. Yep.
    Chairman Royce. How much of the annual PA budget is taken 
up by these salaries to terrorists? What percentage?
    Mr. Carmon. This is hard to determine because no one knows 
really what is the PA general budget. Much of it is hidden. 
There are different bodies that are dealing with it. But I 
would say that by the----
    Chairman Royce. Of the known budget.
    Mr. Carmon [continuing]. Online and--right. Maybe it would 
be about 10 percent.
    Chairman Royce. About 10 percent----
    Mr. Carmon. Yes.
    Chairman Royce [continuing]. Goes to reward people----
    Mr. Carmon. Right.
    Chairman Royce [continuing]. To carry out attacks, 
stabbings, and shootings of the Israel population.
    Mr. Carmon. Mr. Chairman, the President of the Palestinian 
Authority said openly that this is the main concern of the 
Palestinians, that the prisoners are a fighting sector of our 
society and they----
    Chairman Royce. But most of these prisoners are young 
people. You know, the targeting goes to children, the targeting 
goes to youth. They are recruiting young people. I saw one of 
the recordings the other day of a girl who looked no more than 
5. Maybe she was 4. ``What message would you send to other 
children?'' And she has a knife in her hand, and she says, 
``Stab, stab, stab,'' is the message she sends. That is the 
kind of programming.
    In Congress here, over and over again, we repeat this 
theme: If you want to make peace, you have to teach peace. This 
is what we keep conveying to the Palestinian Authority. But 
what we are watching on their television is exactly the 
opposite.
    Maybe you can comment on this messaging and what it 
constitutes.
    Mr. Carmon. Mr. Chairman, MEMRI has been monitoring the 
Arab and Palestinian media mindset for almost 20 years, and 
what we see in the Palestinian media--and now it is virtual, it 
is online, and it goes all over the world--is a constant 
legitimatization of the armed action, of the killing of 
Israelis and Jews. And much of the terminology refers to Jews, 
kill the Jews.
    We have so much material online on our Web site, MEMRI.org, 
which shows it in a quite graphic way, pictures of the actual 
killing, reacting and acting in a kindergarten of the terrorist 
acts, to tell people, this is the model, this is the--tell 
kids, this is your model.
    But there is more than that. There is actual training 
through the Internet of how to do it.
    Chairman Royce. On how to do it.
    Mr. Carmon. Not just stab as it comes to you, but where to 
hit. And there are instructions, and there are instructions to 
use poison, with which knives to deal, and, of course, to use 
any weapon possible, not necessarily weapons but cars and 
trucks and other ways, whatever is in your capability--kill, 
kill, kill.
    Chairman Royce. And these are official Palestinian 
Authority media?
    Mr. Carmon. Much of it is on the Palestinian official 
media, absolutely.
    Chairman Royce. Yeah.
    Well, my time has expired. I will go to Mr. Eliot Engel of 
New York.
    Mr. Engel. Thank you, Mr. Chairman.
    We all know that the Palestinian Authority has not lived up 
to its promises, and we are talking about their incitement 
against Israelis and Jews. And we know that the disgusting 
spectacle of paying terrorists for crimes, for murders, calling 
them martyrs is something that really, really irks all of us.
    But, on the other hand, you know, you look at President 
Abbas; he has just completed 11 years of his 4-year term. He 
threatens to quit all the time. I would like to hear anybody's 
response about if should we worry about a PA collapse. They are 
no prize package, but breathing down their neck is Hamas.
    Is that something that we should be worried about, if the 
PA just totally collapsed? Could Hamas take over? Would the 
Israelis have something on their hands, that they really would 
not want to go in and retake the area? Any thoughts on the 
matter?
    I have no regard for Abbas and what he has done, but what 
about the potential of the collapse of the PA? Anybody who 
would care to answer.
    Mr. Wexler.
    Mr. Wexler. Mr. Engel raises an important point. President 
Abbas presents a mixed bag at best. And he is responsible, 
ultimately, for all of the atrocities that have been outlined 
this morning. But there is also another aspect, which is that 
the collaboration between the PA and Israel is, in fact, quite 
substantial.
    Now, Abbas isn't collaborating with the Israel security 
forces because he has become a Zionist. Just the opposite. He 
is collaborating because it is in his best interest to do so. 
Why? Because if he didn't, the more extreme guys, Hamas--and 
now there are even more extreme guys than Hamas--would threaten 
the relative stability in the West Bank.
    So, to your point, Congressman Engel, if the PA were to 
collapse, what we are likely to see is not a more democratic 
regime, unfortunately. The gap is likely to be filled by an 
even more extreme bunch.
    But let's also be fair, if we may. Condemnations of 
President Abbas are fair, they are legitimate, again, outlined 
this morning. But everyone here needs to understand what it 
takes in order to have an election in the Palestinian 
Authority. You need three approvals. The PA has to approve. 
Israel has to approve, because you can't hold an election in 
Jerusalem without Israeli approval. And you have to have Hamas 
to approve because you can't have votes in Gaza, unfortunately, 
without them.
    So I am not casting judgment, but we need to be realistic 
about the enormous process that would need to be undertaken in 
order to actually have an election under the current 
circumstances in the Palestinian territories. You need those 
three actors to agree to some type of election administration.
    Mr. Engel. Thank you.
    One of the things that is interesting in terms of the 
geopolitical movement of the Middle East is that, if you talk 
to heads of state, the Sunni Arab states sound very similar in 
their perspective of the Middle East to the Israeli leadership, 
to Netanyahu. And you will talk about Iran and other things, 
and you talk to the Sunni Arab states; it is the same thing.
    When you speak with Israeli leadership, they will say there 
is no conflict with the Arab world. There is a conflict with 
the Palestinians. But the Arab world, the Sunni world, sees the 
situation today much like the Israeli Government. There is 
unprecedented cooperation going on behind the scenes between 
Israel and some of the countries that were long regarded as 
Israel's enemies.
    So it is interesting, when you look at the Arab League 
putting forth a comprehensive proposal and a peace plan. There 
have been media reports recently that Prime Minister Netanyahu 
is open to discussing the Arab Peace Initiative as the basis 
for an accord. Israel rightly takes issue with several parts of 
the proposal, but that could potentially be worked out.
    To what extent should the U.S. encourage this? Anybody 
else?
    Mr. Pollock?
    Mr. Pollock. Thank you very much for the question and the 
opportunity to reflect on it.
    I believe that the Arab Peace Initiative is a significant 
step forward, although, as you and others have pointed out, it 
doesn't implement itself, and it needs to be negotiated, and it 
needs to be revised.
    But I would point out that U.S. support for discussions 
about the Arab Peace Initiative could be an important new 
ingredient in this picture going forward.
    Secretary Kerry achieved an important modification of the 
Arab Peace Initiative a few years ago when the Arab foreign 
ministers formally agreed that Israel's withdrawal from 
occupied territories could be, on the basis of new boundaries, 
negotiated between the parties that would allow for territorial 
exchanges--land swaps, as they are often called--rather than 
literally on the pre-1967 lines.
    But that achievement, unfortunately, in the last couple of 
years, has been taken back, walked back by Arab governments and 
by the Arab League. It would be useful, I think, for the United 
States to go to them, to the Arab governments, and say: You 
agreed to this a few years ago. Can we assume that you still 
agree to it today? Can we proceed on that basis?
    That would allow for negotiations that would advance this 
emerging consensus between Israel and key Arab governments that 
peace is in their common interest.
    One last point about this. In late 2013, Arab foreign 
ministers were prepared to go even further, at the urging of 
Secretary Kerry, but they were stopped by objections from the 
Palestinian Authority. This is not in the public record, but it 
is a fact.
    The Palestinian Authority objected, successfully and very 
sadly, in my view, to a willingness on the part of other Arab 
leaders to accept the formulation of recognition of Israel as a 
Jewish state or as a state for the Jewish people. And it would 
be useful today for the United States to encourage those Arab 
governments to reconsider and to encourage the Palestinian 
Authority, hard as it would be--and it would be very hard--to 
reconsider its objections to that formulation. That could be a 
new and, I think, very hopeful basis for renewed peace 
negotiations.
    Thank you.
    Mr. Engel. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    And, first of all, I would like to thank the chairman, Mr. 
Royce, for conducting this hearing.
    And I would sign on personally to your concept that, if 
money is going to people who have committed acts of terrorism 
by the Palestinian Authority, that that should be extracted 
from our commitment to aid the Palestinian Authority. So I 
think that is a very good step, symbolic as well, but needs to 
be done.
    I would also like to especially identify myself with the 
remarks of Ranking Member Engel. His commitment--and as we have 
heard from the witnesses, as well--for a two-state solution has 
not been dimmed by some of the horrendous downsides and 
setbacks that we have seen in the last 20 years.
    And this two-state solution was a solution that was worked 
out. There was a great deal of optimism that it could work. Let 
me just suggest--I just got back from the Middle East, and I 
was in Egypt, Jordan, and Turkey. And the average people in 
those countries still believe in the two-state solution--the 
average people. They are not pro-Israeli, but they understand 
that, to have peace, they need this two-state solution. That 
was heartening to me.
    What is disheartening to me is that we have the United 
States still acting so foolishly that we end up providing 
hundreds of millions of dollars to people who then spend tens 
of millions, if not more, building the very tunnels that 
Ranking Member Engel mentioned.
    And I remember walking with you down into those tunnels. 
And, by the way, these tunnels are not just little holes in the 
ground. These are engineering efforts that are very expensive, 
engineering projects that I am sure cost tens of millions of 
dollars. And yet we continue, to make this consistent with what 
the chairman is saying, we continue to finance them at the same 
level.
    I would suggest we make a list and that, when the 
Palestinians are obviously using their resources to conduct war 
on Israel, we should extract that from what we are giving to 
the Palestinian Authority and et cetera.
    So, with that said--and, also, it is always great to hear 
former Congressman Wexler. He is almost as passionate as I am 
about things, and that is saying a lot.
    Just one question for Mr. Pollock.
    You said that perhaps it would be good for Israel to cease 
its tactic of tearing down buildings. It is my understanding 
that the Israelis destroy buildings when someone in the family 
who lived in that building has conducted a terrorist attack and 
murdered some kind of an Israeli citizen.
    Don't you think that unilaterally ceasing that policy would 
not be something that would give them encouragement to stop the 
type of terrorism that this hearing is all about?
    Mr. Pollock. Thank you, sir. That is a fair question.
    The reality, as I understand it, actually is that, yes, 
that is current policy of the Israeli Government. Although they 
had stopped doing that for many years, they resumed it in the 
last couple of years in response to the new wave of stabbings 
and other killings.
    But the truth is that the Israeli Government demolishes 
many, many other Palestinian buildings for various other 
reasons--just, for example, not having proper building permits, 
not allowing Palestinian construction in certain areas of the 
West Bank or of East Jerusalem and so on.
    And I believe, applied that way, this is a 
counterproductive tactic.
    Mr. Rohrabacher. Well, as long as that caveat was put on, 
in terms of we will continue our destruction of those buildings 
that have a direct association with people who have committed 
acts of terrorism, well, then I might agree with that.
    Mr. Pollock. Yes, sir.
    Mr. Rohrabacher. And one note. The Palestinians lost their 
land in 1948, all right? We understand that. And the Israelis 
that started their new country in 1948, they are a nation now. 
And I agree with Mr. Wexler's analysis that, for it to be the 
Israel that is a separate country and will have some hope, that 
it has to be recognized as a Jewish state and the right of 
return.
    As long as that is a demand and that has not--people keep 
ignoring that issue. As long as that has not been accepted, 
that Palestinian refugees from 1948 are not going to be able to 
go back into what is now the state of Israel, there will be no 
peace, because there is no--Israel would never accept that 
because it would be the end of their country.
    So I would hope that the Palestinian people decide that 
they do want to live at peace and accept that there is no right 
of return and that there is a two-state solution. So let us be 
optimistic that that someday can be achieved, while 
understanding that today this terrorism that motivated the 
chairman to call this hearing, that that is dealt with.
    So thank you very much to the witnesses.
    Chairman Royce. Thank you.
    We go to Mr. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Thank you for being here today.
    Congressman Wexler, nice to see you. I see the passion is 
still there, which is great.
    You know, I keep thinking about this money that is paid 
out. I cannot imagine that the donor countries who are trying 
to help make these payments cannot help, cannot be--what is the 
word I want here? What I am trying to say is, will the will be 
in those countries to stop payment? Is there a will to do that? 
Or will they just keep running along with the program? Can 
anybody answer that?
    I mean, I would think it would be very easy, if the will 
was there, to say, well, we are not going to give you any money 
if you are going to pay for these people who--the families of 
people who commit atrocities. Why isn't the will there to stop 
that? It seems to me, anyway. Maybe I am wrong.
    Mr. Carmon. Well, it is hard to know what are the motives 
of the donor countries. They begin pressuring, and they hope 
that this pressure will help, but, instead of a real change, 
they got a virtual change.
    And, really, the point to raise, as I mentioned, is that 
Abbas himself is doing it for the wrong reasons, so why 
wouldn't they? It is not something that is undone. It is 
something possible, and Abbas himself is doing it.
    Mr. Sires. But I am talking about European countries giving 
money, and people are committing atrocities. They get the 
money, Abbas gets the money and doles it out. But I think it 
should come from the people who give the money to Abbas who 
have the will and say, hey, we are not going to give you a dime 
if you keep using the money for this.
    I mean, there is no will there. And then yet, you know, 
they are the first ones who criticize Israel all the time.
    Mr. Carmon. Sir, it is also U.S. money.
    Mr. Sires. Well, that----
    Mr. Wexler. If I may, directly to the point, but also to 
the broader, I think, aim of this committee and to each and 
every member of the committee, which is ultimately assist the 
parties to create a dynamic in which a two-state outcome is 
feasible--a homeland for the Palestinian state and a 
demilitarized Palestinian state, and a Jewish homeland in a 
democratic Israel.
    Now, rightfully, the chairman and this committee is focused 
on terrorism and payments and the like. But I can tell you, 
this document that was prepared by 200-plus Israeli generals, 
these guys are not doves. And what they will say first is, yes, 
go after incitement, yes, go after terrorism, yes, do all the 
things that you are talking about today, but you are still not 
going to resolve or even begin to resolve the problem.
    And to resolve this problem, it is going to have to be 
multifaceted, and it is going to have to address the 
incitements on all side. And I am not creating a relativity 
between terrorism and building houses. I am not doing that. 
There is no relativity about terrorism. But we also need to 
understand that, from a Palestinian perspective, Israel 
occupies the West Bank. And I don't say the term ``occupation'' 
in the politically loaded way. They control it. But when that 
control is exerted, oftentimes for very legitimate reasons, 
there are counter-reactions.
    And we need to understand that if we want to help the 
parties we need to address all aspects of that conflict--
economic, political, and also people to people, much of what 
has been discussed. Should security be first? Yes, of course it 
should. Should terrorism and payments to terrorists be 
completely not tolerated? Of course. But just to address that, 
we shouldn't be so unrealistic or naive to think that terrorism 
is going to be somehow mitigated.
    Mr. Sires. We have to start somewhere.
    Dr. Pollock?
    Mr. Pollock. Yes, thanks.
    I think that this should not be viewed as an all-or-nothing 
proposition in the sense that we either have to cut off the PA 
completely or do nothing. I think that there----
    Mr. Sires. I am more concerned about the European 
countries.
    Mr. Pollock. Okay.
    Mr. Sires. Because we put stipulations in the money that we 
give.
    Mr. Pollock. Well, yes, but the U.S. stipulations, as my 
fellow witness here, Mr. Carmon, has observed, have been evaded 
by the PA through this deceitful technique of funneling money 
to terrorists and their families under a different name, right?
    So I think that the United States could and other countries 
should--although we can't control what they do in Europe or 
other places--should reduce the amount or condition the amount 
of assistance that they provide to the PA without threatening 
to or without actually cutting it off completely. Because there 
is a real danger, as someone else pointed out, of the PA 
collapsing, which would be bad for everyone--Palestinians, 
Israelis, Americans, and the region as a whole.
    But I do think that a certain calibrated, limited amount of 
financial pressure applied, again, by the United States without 
any loopholes or escape hatches and, if possible, by European 
and other donors to the PA would be helpful in addressing this 
immediate issue. And I agree strongly with Mr. Wexler that this 
not the only issue on the table, but we do have to start 
somewhere.
    I want to say one other last point in this regard. I think 
it is quite possible in the real world, unfortunately, that if 
we and/or European donors reduce--not cut off, but reduce--the 
amount of assistance to the PA by the amount, say, with which 
they subsidize terrorists and their families, if we do that, it 
is quite possible that other unfriendly governments or not-so-
friendly governments would jump in to fill the gap--Arab 
governments, perhaps others.
    And that may be--I hate to say it, to be so cynical about 
it, but that may be the only way in which any of those 
governments will fulfill their aid pledges to the Palestinians.
    Mr. Sires. Yeah. I do not think that one issue is going to 
solve everything. It is much more complex than that.
    Chairman Royce. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Chairman.
    And I appreciate so much Chairman Ed Royce, Ranking Member 
Eliot Engel. This is an extraordinary example of bipartisan 
concern and capable people. And I am grateful to be here with 
my colleague Albio Sires, too, and ask questions which really 
are quite in line.
    It is just absolutely appalling to me that we have a 
situation with the Palestinian Authority which is providing 
rewards to murderers' families. It is pay to slay. And every 
effort, I think, should be made to stop it. Sadly, this follows 
the dangerous Iranian nuclear deal, where funding is being 
provided by the Iranians to Hamas.
    And we need to remember that just last week there was 
another rocket attack at Sderot. And I personally identify with 
that. I have been to Sderot. I have met a dear lady who was at 
a park with her children when a rocket attack occurred. She 
grabbed the closest child, went to a shelter. But the child 
that she didn't pick up was permanently traumatized. I never 
want to see American families have to face this.
    But the thought that we would be allowing any type of 
financing for pay to slay or for Hamas and its--by releasing 
funds to Iran, putting American and Israeli families at risk.
    Along with this, the Palestinian Authority is providing 
financial support for pay to slay, for terrorism in the region.
    And, Dr. Pollock, the--and it has been reviewed, but the 
American people need to know again, so restate. How does the 
Palestinian Authority provide support of the families of known 
terrorists? Is it in the form of cash, electronic wire 
transfers, other sources of payment? And what is the total 
amount that the Palestinian Authority provides in compensation 
to these families each year? Is there any evidence that U.S. 
dollars are ultimately ending up in the pockets of the 
relatives of terrorists?
    And you have stated it, but state it one more time.
    Mr. Carmon. Sir, the documents are there. The information 
is there. We also possess much of it online. I have in my hand 
documents from the Arab Bank and from the Ministry of 
Detainees, which sets up all the details, everything that--how 
and where.
    And they are respectable banks. It is an official 
government operation. It is not some rogue side payment under 
the table. This is what the PA stands for, ideologically and in 
money.
    So the information is there. It is, again, the will to act 
upon it. And I think that it would be a great educational 
process if that amount of $300 million per year is cut so 
people understand through their lives that this path is not the 
way to get rid neither of the occupation nor of their life 
conditions.
    Mr. Wilson. And thank you again for restating and holding 
up the records. And if that wasn't clear, of course, the 
propaganda that you have cited, too, and the boasting about the 
murder of the young lady last week, the teenager, stabbing to 
death, is just incredible.
    Congressman Wexler, welcome back. In your opinion, what is 
the impact of the Palestinian Authority's financial support to 
the families of terrorists on future acts of terrorism? Do you 
believe these payments encourage and perpetuate further acts of 
violence?
    Mr. Wexler. Of course they do. How could they not?
    And not only are they destructive, as everyone has 
described, in terms of the implications for individuals, but 
they are also destructive in terms of its implication for the 
two societies. Why should the Israelis ever believe that they 
have a genuine partner for peace when the other side is 
encouraging the type of behavior that is being discussed? And, 
likewise, if you are a 12-, 13-, 14-year-old young Palestinian 
boy and you see the type of behavior that is encouraged on your 
side, what disincentive is there to go and repeat those kinds 
of atrocities?
    But, if I may, and not, again, to create any relative type 
of comparison, but that is why those of us who care so deeply 
about the security and the well-being of Israel need to make 
certain that Israel takes independent initiatives on its own 
behalf to control its own destiny, quite frankly, not wait for 
the partner to emerge that we all hope would emerge.
    And that is the kind of behavior that, ultimately, as it 
stands, will actually create a dynamic that might possibly, if 
the Palestinian leadership wants to become more reasonable, 
will be able to do so.
    Mr. Wilson. Well, thank you very much. And, again, I look 
forward to working with my colleagues to ending pay for slay. 
Thank you.
    Chairman Royce. Thank you.
    We go to Karen Bass from California.
    Ms. Bass. Thank you very much, Mr. Chair.
    First of all, you know, my heart goes out to the family of 
the 13-year-old child. I can't imagine what they must be going 
through right now. But, yeah, I am so concerned about the cycle 
of violence, and I hope that this atrocity doesn't lead to 
revenge killings like we have seen.
    And I think both Mr. Wexler and Dr. Pollock have talked 
about the generals and the desire of the generals to see a 
different policy. And I wanted to know if you could expand on 
that a little bit.
    A couple of my colleagues have mentioned--and I believe you 
did too, Dr. Pollock--about the policy of destroying homes--and 
I would imagine the home of the 17-year-old might get 
destroyed--and then the policy of the PA of giving money to 
families that have committed these acts.
    So when a house is blown up, then where does that family 
go? And is that an example of the money that the PA uses? I 
mean, what happens to--you never hear about that. And you also 
mentioned other examples of houses being, you know, dismantled 
because of building codes or whatever. What happens to those 
families?
    Mr. Pollock. Okay. Thank you for the question.
    In my own view, blowing up the houses of families of 
terrorists, if that actually deters terrorism----
    Ms. Bass. Is there any evidence of this?
    Mr. Pollock [continuing]. I don't know the answer to that, 
honestly. But if--if--it does deter terrorism, then I think, 
tragically, it would be acceptable, even though, honestly, it 
is collective punishment. It leaves families who may not 
actually be responsible for the actions of their children or 
other relatives, it leaves them homeless.
    It is something that is very debatable. And, as I said, the 
Israeli Government itself had long stopped using that practice 
and only resumed it in recent years, I would say, almost as a 
matter of desperation, because they were subject to this very 
deadly wave of stabbings and other forms of assault.
    Ms. Bass. Is this a practice that the 200 generals are 
against?
    Mr. Pollock. I don't know for sure, but----
    Mr. Wexler. No, I--oh, I am sorry.
    Mr. Pollock [continuing]. I want to just say in connection 
with that--and allow me to be very frank. With all due respect 
to any group of generals or others who are well-intentioned and 
smart and patriotic, here or anywhere, it is the Government of 
Israel that has to make these decisions. And that government 
is, like it or not, a democratically elected government. And 
only a democratic election will change that government or its 
policies.
    Ms. Bass. I believe both of you have made reference to 
settlements and saying that more settlements shouldn't be 
approved. But weren't more settlements just approved in the 
last couple days?
    Mr. Wexler. If I may?
    Obviously, I don't speak for Dr. Pollock, but, actually, I 
think we have been talking on the same tune. What we have 
talked about is the security fence that Israel, in my humble 
opinion, rightfully built after the last round of intifada. 
And, unfortunately, for political reasons, they haven't 
completed the fence, but that is a whole other story.
    What Dr. Pollock and I have said is, beyond that security 
fence, meaning east of the security fence--and the route of the 
security fence was created by the Israeli Government--that the 
Israelis should stop building beyond that fence. Because, for 
all practical purposes, based on an Israeli action, the 
likelihood that that land would ever become a part of an 
Israeli state in a negotiated outcome is probably zero percent. 
So why exacerbate--why create even additional problems?
    Dr. Pollock, I think, talked about a tradeoff. What he said 
was, in return for the Israeli Government saying they would not 
and, in fact, not building beyond the fence--he talked about a 
tradeoff--then America shouldn't criticize settlement building 
within the fence. And I think that is a legitimate point.
    But settlements don't occur in a vacuum, or building 
doesn't occur in a vacuum. You have to put all the issues 
before the people. But if you did that kind of action, if the 
Israelis did that kind of action, their international 
legitimacy for those that are at least objective would go sky-
high. Because you wouldn't be able to just criticize the 
Israeli Government in a wholehearted way without recognizing 
the fact that they have taken an important initial step.
    Ms. Bass. Thank you.
    Chairman Royce. We go to Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman, and thanks for this 
hearing.
    When I think about the issues of today, I think about the 
solution. And I think the solution is easy, but the political 
implementation of that solution seems very, very difficult. 
When I say ``solution,'' I mean the beginning of a solution. 
And that is the recognition by the PA, the Palestinians, of the 
Jewish state of Israel's right to exist--recognition of that 
state.
    When I was in Israel in 2011, I talked with Benjamin 
Netanyahu and Shimon Peres and others, who said, you know, if 
the Palestinians would just recognize our right to exist, it 
would go a long way to getting us all to table to start 
negotiating the things that the gentlemen on the panel are 
talking about.
    The solution is easy, but the political implementation by 
the Palestinians is very difficult, and I get that. I get that. 
But sometimes leadership takes making difficult decisions to 
move the ball forward. So my appeal to the Palestinians today 
is recognize Israel.
    I am proud to stand as a Member of Congress as someone that 
stands with the state of Israel and support them in any way 
that I can as a Congressman and we as the Foreign Affairs 
Committee and the United States Congress can--financially, 
security-wise, and just verbally of standing firm in our 
commitment to the state of Israel.
    Mr. Chairman, this hearing is important, but it is 
difficult for me today to focus on Israel and the West Bank and 
the U.N. and recognition and funding after I witnessed 
yesterday in my own country the FBI Director erode the very 
fabric of the fabric of the foundations of the institutions of 
government.
    July 5, 2016, will be a day that we remember, when we saw 
that the blindfold on the arbiter of the scales of justice was 
ripped away. Because the scales of justice are no longer 
blindfolded. Before yesterday, you were to be judged and 
weighted based on the evidence. But as of yesterday, political 
influence, party affiliation, race, gender, family ties, you 
name it, all will factor into justice.
    American needs to realize that the scales of justice wear a 
blindfold for a reason. It is what sets us apart from other 
countries around the world. I travel extensively through Latin 
America as chairman of the Western Hemisphere Subcommittee. 
What sets America apart from countries in Latin America is our 
impartial justice system, where the facts are weighed.
    It shouldn't matter what family you were born into, your 
wealth, your race, your sex. It shouldn't. And we have had an 
ongoing conversation in the last few years about race and 
impartiality with regard to race in the justice system. Now we 
are going to have an ongoing conversation about political 
aristocracy, political connections, wealth, future aspirations, 
you name it--will all factor into the American judicial system 
to its detriment, America.
    Regardless of how you feel about individuals and individual 
candidates, surely you believe in the institutions of 
government.
    It is a sad day for me. I can't focus on Israel and the 
topics that the gentlemen on the panel were brought to 
Washington to discuss. My love for Israel is clouded by my love 
for the United States of America. Because without America, 
without the things that we believe in, we will not have the 
ability to support our allies in the region. And I hope 
everyone will think about that.
    And, with that, I yield back.
    Chairman Royce. We go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    Dr. Pollock, I am picking up on your last comment about a 
democratic government in Israel, and until and unless that 
democratic government is changed, they make the decisions.
    Surely, however, you did not mean to suggest that this 
democratic elected government, as the largest supporter of 
Israel, doesn't have a right to be critical when it thinks its 
interests or even Israel's are at risk.
    Mr. Pollock. Absolutely not. You are quite right, sir.
    Mr. Connolly. Okay.
    Mr. Pollock. But----
    Mr. Connolly. I just wanted to clarify that. I don't mean 
to cut you off, but I--because leaving it that way--I mean, we 
get to be, as friends, critical.
    Mr. Pollock. Yes, sir.
    Mr. Connolly. And U.S. policy is longstanding with respect 
to settlement expansion and other aspects of the relationship 
that have critical aspects to them as well as, of course, 
longstanding support. I count myself, certainly, as an 
unswerving supporter of Israel, but that doesn't mean I can't 
be critical as a friend.
    Mr. Pollock. Of course.
    Mr. Connolly. Okay.
    And you can answer this, too, if you wish, but I will put 
it to, first, Congressman Wexler.
    Congressman Wexler, okay, so there are problems with the 
Palestinians--leadership, funneling of money, as Dr. Pollock 
indicated, that, clearly, we find abhorrent.
    What happens--let's defund the PA, let's close their 
offices here, let's stop working with them. Would that be 
welcomed by the Israeli Government, in your opinion? And would 
it help the cause, the peace cause?
    Mr. Wexler. It is not my opinion; it is the policy of the 
Israel Government at successive stages where they were 
diametrically opposed to certain steps that might have led to a 
destructive position for the PA.
    No one has a greater stake in the success of the 
Palestinian Authority and, more importantly, a greater stake in 
the bolstering of moderate forces or, at least, of the group, 
the most moderate forces, than Israel. If the Palestinian 
Authority crashes, one of two things is most likely to happen: 
Hamas or even more extreme elements take control, or the 
Israelis have to step in even with greater strength. Either 
result is a disaster for Israel.
    Mr. Connolly. And that is the position of the Israeli 
Government.
    Mr. Wexler. Sure. It has been that way through Labor 
governments, Likud governments, Kadima governments, because it 
is, quite frankly, so obvious. They need the Palestinian 
moderate forces to be successful.
    Now, some could argue, when they had that opportunity under 
Prime Minister Fayyad, who was, you know, in most respects, 
from an American and Israeli perspective, the best thing that 
came along----
    Mr. Connolly. A vary able administrator.
    Mr. Wexler. That is right.
    Mr. Connolly. And, as far as we know, incorruptible.
    Mr. Wexler. Yes. And we didn't do enough, none of us, to 
push his agenda----
    Mr. Connolly. Yeah.
    Mr. Wexler [continuing]. Quite frankly.
    Mr. Connolly. Terrible loss, actually, when we lost him.
    Dr. Pollock, do you concur?
    Mr. Pollock. Yes, I do. But, as I said, I don't believe 
that this is an all-or-nothing----
    Mr. Connolly. Right.
    Mr. Pollock [continuing]. Proposition.
    Mr. Connolly. Got it. I agree. I think our choices aren't 
great, and I think that is always hard for Americans. There 
ought to be a very clear white-hatted choice and a----
    Mr. Pollock. Right.
    Mr. Connolly [continuing]. Bad, black-hatted choice. We are 
between a rock and a hard place, but, absent the PA, probably 
either the Israelis have to step in and actually run everything 
in the West Bank administratively, in terms of local government 
services, or Hamas gains control of the West Bank, which is not 
a desirable outcome.
    Mr. Pollock. What I mean specifically is that a reduction--
not a cutoff, a reduction----
    Mr. Connolly. Yeah.
    Mr. Pollock [continuing]. In U.S. and other funding for the 
PA----
    Mr. Connolly. Right. I didn't mean to even suggest you were 
saying that. But they have been calls here, even on this 
committee, for a total cutoff and close the----
    Mr. Pollock. No. I think that would be a mistake.
    Mr. Connolly. Okay.
    A final thing, real quickly. Mr. Wexler, you made reference 
to 200 generals, Mossad leaders, Shin Bet leaders, who have 
expressed deep concern about the current government in Israel, 
Netanyahu, and Israel's security. Do you want to elaborate a 
little bit on that? What is going on?
    Mr. Wexler. Yeah. I don't want to politicize this 
needlessly. Their concern is not addressed about the 
government. Their concern is about the policy. Their concern--
these are generals. For the most part, almost all of them are 
not politicians. And what they have put forth is a multifaceted 
set of policies that will help address the security quagmire 
that Israel finds itself in.
    The first assumption they make, quite frankly, is that the 
question of whether or not there is a genuine partner for peace 
for Israel, they don't care about it. Not because they don't 
want there to be a genuine partner. What they are saying is, if 
we wait forever for Abbas or his successors to do the right 
thing, in the meantime we are going to be compromised; our 
interests, Israeli interests, are going to be compromised.
    So what they are saying to their own government, to their 
own people is: These are the 12, 18 steps we could take on our 
own, because, thank goodness, we are strong enough, and will 
enhance our position rather than detract from it. That is what 
they are saying.
    It is not a condemnation or an applause for the government. 
What they are saying is the status quo, the way it remains, if 
we do nothing, we will actually compromise Israel's Jewishness, 
its Jewish majority; its democratic nature is in question, and 
its international standing is constantly badgered.
    Now, for a lot of reasons, that badgering and that 
criticism is totally illegitimate. But what these security 
commanders are saying is, if we are going to be strategic, 
let's at least put forth an international position that allows 
us to enhance our international relationships, as opposed to 
constantly being on the defensive.
    Chairman Royce. We are going to go to Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr. Pollock, I have to say, this is the first hearing I 
have been at where the first witness said, as I see it, our 
primary task here is not to debate the underlying issues of the 
Israeli-Palestinian conflict or U.S. policy in that regard. I 
thought the hearing was over, at that point. That is an 
interesting thought.
    And then you go on and you say--and that is exactly what we 
have been doing, by the way, in my opinion. We are debating 
those underlying issues and how we got here and how those need 
to change.
    Then you go on and you lay out five proposals. And your 
fifth and final proposal is that the U.S. should publicly 
support and very vocally encourage others to endorse what we 
call mutual imbalance--I thought that was a news station, i 
didn't know; or that is ``fair and balanced,'' isn't it?--but, 
if necessary, unilateral steps toward peaceful coexistence.
    And then you talk about the Israelis stopping the 
destruction of--destroying buildings of those who perpetrate 
such violence on innocent men, women, and children.
    And you don't say in your comments--and I followed you 
fairly closely--you don't say in your comments anything about 
there being unilateral action, perhaps, on the Palestinian 
side.
    And so is it totally out of--I mean, is it just totally out 
in left field and unrealistic to say, how about some unilateral 
action on their side? They stop indoctrinating their children--
I will give you four examples. Then I will give you a chance to 
respond.
    Stop indoctrinating their children with the message of 
hate. Quit calling the Jewish people dogs and apes and animals 
and then trying to kill them as such. Kick out Hamas. Recognize 
Israel's right to exist, number three. And, fourth and finally, 
stop funding the terrorism and those that are in jail.
    Is there no call for the Palestinians to have any 
unilateral responsibility, Dr. Pollock?
    Mr. Pollock. Thank you for the question.
    I actually think that I made that call, both in my written 
statement and in my remarks. I said specifically in my 
remarks--perhaps you weren't here in the room--that the PA 
should stop referring to murderers----
    Mr. Weber. Well, I am reading your fifth----
    Mr. Pollock [continuing]. As martyrs.
    Mr. Weber [continuing]. Point basically says that about 
Israel. It doesn't say it in this context. So if I missed it, I 
apologize.
    Mr. Pollock. I think you did miss it, sir, yes. And I 
accept your apology.
    But what I would like to say in response is that, if you 
look at my written statement, you will see a long list of 
unilateral moves that Israel could take and that the 
Palestinians could and should take, including not referring to 
murderers as martyrs and recognizing Israel as a Jewish state.
    Mr. Weber. Okay. Fair enough.
    Do you agree with that, Mr. Wexler, that the Palestinians 
should be called upon initially to stop the violence from their 
end?
    Mr. Wexler. Yeah, 100 percent. You had me totally, 
Congressman Weber, until you said kick out Hamas. I agreed with 
every word you said. That may trouble you, but I agreed with 
every word you said.
    Mr. Weber. Your agreeing with me or the not agreeing with 
kick out Hamas?
    Mr. Wexler. No, I am all----
    Mr. Weber. That is the part that troubles me.
    Mr. Wexler. I am all for kicking out Hamas, but we need to 
understand the reality. The reality is the PA doesn't have an 
army. The reality is the strongest army in the region, thank 
goodness, is the Israeli Army. They haven't been able to kick 
out Hamas, unfortunately.
    So when we say kick out Hamas and you say the PA should 
doing that, with what weapons? They don't have them. Now, I 
don't want to give them the kind of weapons that would be 
required to kick out Hamas.
    But what we also respectfully need to understand, as much 
as you disdain Hamas, hate Hamas, as much as I disdain them and 
hate them, as much as the Israelis disdain them and hate them, 
Abbas hates them even more than you and me.
    Mr. Weber. So this is the lesser of two evils? Is that like 
the bumper sticker that says, ``Have you hugged your terrorist 
today?''
    Mr. Wexler. No.
    Mr. Weber. I mean----
    Mr. Wexler. No. No. I wouldn't go that far. Hamas is a 
despicable terrorist organization that is designed to destroy 
the state of Israel. If I could stamp them out tomorrow, if I 
had the power to do it, I would do it.
    Mr. Weber. So if it is not destroying the buildings whereby 
the perpetrators live in and people get to understand--if you 
want the force and you don't have the military weapons, you 
have to have the public understand, number one, you don't teach 
hatred; number two, those who perpetrate such acts of violence 
will be dealt with immediately and in a very decisive fashion. 
Is that wrong?
    Mr. Wexler. No. You are right. But here is the problem. 
Every 2 years--I used to do it too--we would run commercials 
and send out leaflets. I imagine in November you will send 
out--in October, you will send out a whole bunch of stuff, what 
Congressman Weber has achieved these last 2 years.
    So if you are a Palestinian and you are taking a look as 
to, well, which brand of leadership am I in favor of--Abbas' 
leadership? He talks about negotiating or--even though he 
doesn't do it--he talks about a peaceful resistance. And the 
Palestinian people look at it, even if they are inclined to 
believe, and they say, what has that bought me for the last 30 
years? They don't like it. Whether they are right or wrong, I 
don't know, but they don't like it.
    They look at Hamas and their absolutely atrocious 
behavior--guess who causes the Israeli Government to make a 
prisoner swap where they give up thousands for two? Hamas, not 
the Palestinian Authority. So, unfortunately, what the 
Palestinian Authority see is they see that this terrorist 
group, in certain ways, from their completely distorted, 
horrific logic, is more effective in representing their 
interests than the more moderate Palestinian leadership.
    What we have to do, respectfully, is encourage our 
friends--Israelis, Arabs, everybody, and Palestinians--to 
support and bolster the moderate strain so that they have a 
commercial to run.
    Chairman Royce. We will go to----
    Mr. Weber. Mr. Chairman, I am going to yield back.
    Chairman Royce. We will go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair. Thank you for this 
hearing.
    And one of the things I have always been grateful, in terms 
of this Congress, which is often at each other's throats on 
both sides, is the bipartisan spirit and support of Israel and 
peace for both Israel and the Palestinians, which is what we 
are here to talk about today.
    You know, I wasn't going to raise this, but one of my 
colleagues made such a dramatic statement about his 
disappointment about something that happened yesterday. I 
agree, in this regard. There was something that happened 
yesterday that really appalled me, but it is not the same thing 
that appalled him. One of our Presidential candidates--you can 
just fill in the blank--praised the late Iraq dictator, Saddam 
Hussein. He said, ``You know what he did well? He killed 
terrorists. They didn't read them their rights. They didn't 
talk. If they were a terrorist, it was over.''
    Now, as I recall--and, Mr. Chair, I would ask unanimous 
consent to have this article put into the record.
    I want to just read from an article dated April 3, 2002, 
CBS News. It says,

        ``Iraq President Saddam Hussein has raised the amount 
        offered to the relatives of suicide bombers from 
        $10,000 per family to $25,000, U.S. Defense Secretary 
        Donald Rumsfeld said Wednesday. Since Iraq upped its 
        payments last month, 12 suicide bombers have 
        successfully struck inside Israel, including one man 
        who killed 25 Israelis, many of them elderly, as they 
        sat down to a meal at a hotel to celebrate the Jewish 
        holiday of Passover. The families of three suicide 
        bombers said they recently received payments of 
        $25,000.''

    So, just for the record, yes, something that I think was 
disgraceful to American values was any Presidential candidate 
who would praise Saddam Hussein.
    Now, with that said, I am going to ask a question, not on 
that subject.
    Mr. Wexler, I have been very long interested in your 
analysis of the demographics in the region. And I am told that 
you did talk about that earlier in your testimony. So my 
question to you is--and maybe you can just repeat some of that 
for me--is, what is the incentive for the Palestinians really 
to not just wait?
    Mr. Wexler. Thank you, Congresswoman Frankel.
    This is part of the problem. Time is arguably on the 
Palestinian side, not on the Israeli side.
    If you boil this conflict down--and I don't mean to be 
simplistic, but--there are three major components, essentially, 
at least from an Israeli perspective: Land, democracy, and 
Jewish majority.
    The unfortunate reality is Israel gets to pick two of those 
three. They don't get to pick three. If they take all the land 
from the Mediterranean to the Jordan River, if they take a 
great bulk of the West Bank, they are going to either lose 
their Jewish majority or their democratic nature, which for 
most of us would be tragic.
    So Israel has to choose between two of those three 
categories. And what the commanders are choosing, what I hope 
our allies would help create a dynamic in which Israel feels 
secure enough, strong enough to choose, is a resolution in 
which their Jewish nature is assured, their democratic nature 
is assured, and that they get international borders finally.
    Israel does not have internationally recognized borders. 
They need internationally recognized borders that are, in fact, 
defensible. And that is what the Israeli security establishment 
is so concerned about. They want to get about the job of 
protecting Israel. But today that job is so much more difficult 
because Israel doesn't have internationally recognized borders. 
And the key component is to create them so that Israel can 
maintain its Jewish majority and its democratic nature.
    Ms. Frankel. Thank you.
    Chairman Royce. We go now to Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    I would like to drag this hearing back to what I thought it 
was about, which is financially rewarding terrorism in the West 
Bank and with an eye toward that.
    The U.S. policy toward the Palestinians consists of three 
end goals: To establish a stable--I am just reading them--
lasting and peaceful end to the Israeli-Palestinian conflict 
through direct bilateral negotiations, that is one; two, to 
counter Palestinian terrorist groups; and, three, to establish 
norms of democracy, accountability, and good governance.
    Now, the U.S. funding of the United Nations Relief and 
Works Agency for Palestinian Refugees in the Near East, or 
UNRWA, as we usually call it, runs counter to every single one 
of these three policy goals. UNRWA's ties to what I 
characterize and what many of us characterize as a terrorist 
organization, Hamas, both threaten bilateral negotiations and 
undermine U.S. efforts to counter Palestinian terrorist groups.
    Since 2006, Hamas-affiliated candidates have held all 11 
seats on the UNRWA teachers' union executive board. UNRWA 
schools use textbooks and materials that delegitimize Israel, 
denigrate Jews, and venerate martyrdom. These materials work to 
indoctrinate the Palestinian youth, making them susceptible to 
radical militant groups such as Hamas.
    The unfortunate yet foreseeable result of this curriculum 
can be seen in an April 2016 poll that found that 78.6 percent 
of the youth in Gaza and 46.4 percent of the youth in the West 
Bank support the Knife Intifada. Furthermore, 76 percent of the 
terrorists taking part in the Knife Intifada were under the age 
of 30. Now, UNRWA's education system seems to have created a 
large pool of indoctrinated youth hellbent on attacking 
Israelis.
    UNRWA's employees are screened for ties to terrorism, but 
the vetting system, believe it or not, focuses on things like 
al-Qaeda or the Taliban but does not focus on Hamas or 
Hezbollah. It is crazy. Ninety-five-point-five percent of 
Palestinians in the West Bank and Gaza believe the Palestinian 
Authority is corrupt, and 82 percent of Gazans believe Hamas is 
corrupt. Yet UNRWA effectively works as a support service for 
both of these organizations, taking care of basic government 
services. This, in effect, subsidizes with American dollars 
these groups' corrupt and oftentimes terroristic activities.
    The total annual budget for the United Nations Relief and 
Works Agency for Palestinian Refugees in the Near East, or 
UNRWA, for Fiscal Year 2015 was $1,246,802,614. And since its 
inception in 1950, the United States has contributed more than 
$5.6 billion to the agency, more than any other single nation. 
And in Fiscal Year 2015, the United States contributed $390.5 
million, making up 31 percent of the agency's budget.
    Do any of you fine gentlemen on the panel object to my 
legislation, which would prevent U.S. taxpayers from continuing 
to fund this agency?
    Mr. Wexler. I don't know if I object or I support it. I 
certainly support the intention. But, if I may, let's say you 
pass your legislation, let's say it is implemented and UNRWA 
and Gaza closes up----
    Mr. Perry. It doesn't close up; we just don't fund it 
anymore.
    Mr. Wexler. Well----
    Mr. Perry. My tax dollars, your tax dollars, their tax 
dollars don't fund it anymore.
    Mr. Wexler. I get it. And we pay a disproportionate amount 
of UNRWA dollars based on the U.N. formula. So when your 
legislation is successful and UNRWA no longer can implement the 
programs it implements in Gaza, the ones you are objecting to, 
rightfully so, who is going to run the sewer plant, the one 
that is already pushing sewage into the sea that not only 
destroys the Palestinian coast but the Israeli coast? What are 
those children going to do----
    Mr. Perry. I guess somebody is going to have to make a 
decision on what their priorities are.
    Mr. Wexler. Okay. All right. All right.
    Mr. Perry. I say that a dirty sea and sewage is bad, but it 
is better than people being stabbed, blown up, rocketed, et 
cetera.
    Mr. Wexler. Totally agree with you.
    Mr. Perry. Okay.
    Mr. Wexler. But let's also be realistic. The people with 
the knives, thank goodness, are not coming from Gaza. Gaza is 
essentially walled off to Israel. The people with the knives 
are coming from the West Bank. So what you do in Gaza is not 
going to prevent the people with the knives.
    If you want to prevent the people with the knives, I would 
respectfully suggest the Israeli Government should complete the 
security fence and create borders that----
    Mr. Perry. That is what they can do. But what we can do is 
stop funding the training camps that would be described as our 
elementary schools, our daycares, our middle schools, right?
    Mr. Wexler. Yes.
    Mr. Perry. We are funding that.
    Mr. Wexler. And I am deeply troubled by it.
    Mr. Perry. Troubled?
    Mr. Wexler. Yeah.
    Mr. Perry. You got to be more than--with all due respect, 
sir----
    Mr. Wexler. Yes.
    Mr. Perry [continuing]. We are all troubled, right? We are 
talking about action here. This hearing is about the funding of 
terrorism----
    Mr. Wexler. Yes.
    Mr. Perry [continuing]. Taxpayer funding, and that is why I 
asked the question.
    Mr. Wexler. That is right. Yes.
    Mr. Perry. So while we talk about platitudes here and we 
are all troubled--and we all are, rightfully so, yourself 
included--we have an opportunity here to do something.
    Mr. Wexler. And all I would suggest is, if you are going to 
do that--which, obviously, your bill stands for that--then at 
least have round two figured out on how you are going to 
achieve your purpose, which is minimize terrorism, not enhance 
it.
    So, yes, if you are taking that first step, which may be 
very legitimate, figure out step two, which is, as the 
followup, how are you actually reducing terrorism as opposed to 
creating an even greater incentive.
    Mr. Perry. With all due respect, sir, I hear what you are 
saying, but the policy that comes to--and I thank your 
indulgence, Mr. Chairman--what I see as appeasement at some 
point, that it is my duty, that it is my duty to figure out how 
to solve that problem or I must pay some blood money, 
extortion, seems counterintuitive to every moral code that I 
have ever followed in my life.
    Mr. Wexler. And, if I may, I couldn't agree with you more. 
And I would just respectfully suggest that, before you reach 
your ultimate conclusion, you sit down with our Egyptian allies 
and our Israeli allies and our Jordanian allies and ask them 
what their suggestions would be for round two to make sure you 
don't make the----
    Mr. Perry. Maybe round one can be a forcing function.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Okay.
    Mark Meadows from North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
holding this hearing. As you know, this is a passionate area 
for me, having cosponsored legislation that suggests that we 
should close the PLO office here in Washington, DC, as long as 
they continue to fund terrorists who commit these kinds of 
acts.
    So, Mr. Wexler, you know, you have come up with a lot of 
suggestions on what the Israelis should do. Do you not think it 
would be a prudent call to close the PLO office here in 
Washington, DC, as long as we are paying terrorists to commit 
terrorist acts?
    Mr. Wexler. Principally----
    Mr. Meadows. Just yes or no.
    Mr. Wexler. No, it is not that simple.
    Mr. Meadows. It is that simple. Let me tell you----
    Mr. Wexler. No, it isn't.
    Mr. Meadows. Let me tell you why the problem is.
    Mr. Wexler. Yeah.
    Mr. Meadows. I have five Jewish young girls over here who 
don't understand. I don't understand why we can't close a PLO 
office when I was told by the Ambassador that they were not 
going to fund terrorist activities anymore. And all they did 
was moved it from the PLA to the PLO.
    And so what we are doing is we are continuing to do it. We 
need to close that office. We need to make sure that what 
happens is at least we send a message. If we can't close an 
office, then we certainly cannot be serious about addressing 
this issue.
    Mr. Wexler. Then close it. And----
    Mr. Meadows. Why would you not support that?
    Mr. Wexler. Because my fear--my fear is that when we take 
actions like the one you are describing, which are totally 
justifiable based on the facts of what is occurring, that, in 
effect, we are rewarding the terrorist inclinations amongst 
their society as opposed to the more pragmatic ones.
    Mr. Meadows. But based on----
    Mr. Wexler. Remember--hold on.
    Mr. Meadows. But based on that, based on that, your whole 
philosophy is a philosophy of appeasement.
    Mr. Wexler. No.
    Mr. Meadows. Historically, that has never worked.
    Mr. Wexler. Not fair, sir. My philosophy----
    Mr. Meadows. Well, it is fair, because what you are saying 
is we can't even close an office.
    Mr. Wexler. My philosophy is the philosophy of the Mossad. 
My philosophy is the philosophy of the Shin Bet----
    Mr. Meadows. All right. But----
    Mr. Wexler [continuing]. The roughest Israeli fighters.
    Mr. Meadows. Mr. Wexler, let me come back.
    Mr. Wexler. Who is----
    Mr. Meadows. Hold on. It is my time.
    Mr. Wexler. You are correct.
    Mr. Meadows. So let me come back. Because I was on the 
ground in Israel when the latest round of stabbings occurred. 
And for you to sit here and suggest that somehow this is a 
goodwill tour, that the Israelis are going to be viewed in a 
positive light if they just give a little bit more--I was there 
when Western papers were talking about how it was the Jewish 
boy's fault that he was stabbed and not the Palestinian. I was 
there when he was doing the ISIS sign from his hospital bed, 
when they said that the Israelis had killed him, which was not 
the fact. I was there on the ground.
    And so to suggest that somehow building a wall will fix 
this problem? I can tell you, if the Israeli Government felt 
like building a wall will bring peace, it would be built 
quicker than any wall you could ever see. But that will not do 
it because you and I both know that the Palestinians go back 
and forth between those walls.
    I was in a courtroom----
    Mr. Wexler. Sir----
    Mr. Meadows. I was in a courtroom where I had a Hamas 
attorney with Palestinian youth that were prideful of the fact 
that they had committed these atrocities, as if they had won a 
spelling bee. How do we change that?
    Mr. Wexler. With all due respect, Israel was suffering from 
suicide bombs every week, blowing themselves up left and right, 
under Prime Minister Sharon. What was his primary response? He 
built the wall that was highly controversial internationally--
the Palestinians opposed to it, most of the international 
operators opposed to it. But Sharon went and built the wall. 
And guess what? Israel, to the degree--again, it is relative--
defeated the intifada, in great part because of that wall.
    So, with all due respect----
    Mr. Meadows. Well, with all due respect----
    Mr. Wexler [continuing]. You can't say a wall won't help. 
It does help----
    Mr. Meadows. No, no.
    Mr. Wexler [continuing]. Greatly. In fact----
    Mr. Meadows. I didn't say it wouldn't help. What I said, it 
would not solve the problem.
    Mr. Wexler. You are correct. It won't.
    Mr. Meadows. Those were my exact words.
    Mr. Wexler. It won't solve the problem.
    Mr. Meadows. And what I am here today to say is, if we 
can't take minor steps like closing a PLO office, then what are 
we supposed to tell the generations to come? That we would not 
even take small, diplomatic--I mean, we are not talking about 
cutting off their funds. All we are saying is they can't have 
an office here in Washington, DC. Does that not seem like a 
reasonable compromise?
    Mr. Wexler. It is. It is reasonable.
    Mr. Meadows. Then why don't you support it?
    Mr. Wexler. Because I would just simply ask the question, 
the day after you close it, have you benefited Hamas and the 
more extreme elements, or have you changed the behavior and 
sent a message?
    Mr. Meadows. Well, we know that what we have been doing 
didn't work. We know that they continue to pay terrorists. At 
what point do we change our philosophy to figure out if some 
new strategy would work?
    I will yield back.
    Chairman Royce. Okay. We go to Mr. Brad Sherman of 
California.
    Mr. Sherman. Thank you.
    Rob, welcome back. You may be having more fun in that seat 
than you had in the seats on this side.
    It has been suggested that maybe we should have a change in 
American policy and we should have an American President who 
declares that we are neutral between Israel and its enemies and 
that the upside of that would be that somehow that neutral 
President would be able to create peace just by convening a 
meeting.
    What are the dangers of the United States declaring that we 
are neutral but available to have discussions between Israel 
and its enemies?
    And if the United States was not a stalwart friend of 
Israel, would Panama be the most powerful nation that Israel 
could count on as a stalwart friend, or would there be some 
other nation that would rise to the top as being on Israel's 
side?
    Mr. Wexler. I think you raise a very valid point. 
Neutrality by the United States with respect to Israel and its 
neighbors would be catastrophic. It would be catastrophic for 
Israel, it would be catastrophic for America.
    Quite frankly, I have never understood the term ``honest 
broker.'' I don't understand why we Americans would ever even 
suggest that Americais an honest broker. We are a strong ally 
of Israel because of shared values, because of democratic 
values, because of a whole host of moral, ethical, common ties. 
And the fact that Israel is our closest ally in the Middle 
East, it would be catastrophic if the world perceived that we 
moved even slightly away from that very strong position.
    And what is even stronger is events like what occurred 2 
weeks ago, where the Israeli military establishment--I think 
they were in Texas, or I forget where--where the F-35 Strike 
Fighter plane was delivered effectively to Israel, rightfully 
so. And they are the only country in the region that has that 
next-generation American technology.
    That sends the right message both to Israel's opponents and 
also to our other allies in the region, our Arab allies and 
elsewise, to encourage them to engage more substantially with 
Israel.
    Mr. Sherman. I would point out that Israel does not lack 
for honest brokers. Every former Prime Minister of Britain has 
offered himself as an honest broker, not to mention everyone 
who imagines themselves winning an Nobel Peace Prize. There is 
no shortage of honest brokers. Israel does have a shortage of 
stalwart friends, which is why if we were not among them I 
hesitate to think who would be at the top of the list.
    The Israeli Ministry of Education and the municipality of 
Jerusalem now allow new versions of the Palestinian textbooks 
to be used in East Jerusalem. The Palestinian Authority has 
claimed that they are taking out of those textbooks incitements 
to violence.
    Have they achieved this with regard to these new textbooks, 
both for those being used in Jerusalem and those being used in 
the West Bank and Gaza?
    Mr. Wexler?
    Mr. Wexler. My understanding is that, unfortunately, they 
have not achieved any dramatic reduction in the incitement 
contained in the textbooks. My understanding is there have been 
certain changes made that are moving in the right direction, 
but I don't think anyone here would categorize those as even 
nearly sufficient enough.
    Mr. Sherman. And I would point out that we could reduce the 
amount of money we give the Palestinian Authority and give them 
textbooks, in which case we would make sure that there would be 
no incitement in those textbooks.
    I will ask the other two witnesses, are you familiar with 
these textbooks, the new version, and how would you apprise 
them?
    Mr. Carmon?
    Mr. Carmon. We are working on this, and we will publish a 
report about the new textbook.
    Mr. Sherman. Can you give us a preview? It will help sales. 
Go on.
    Mr. Carmon. The previous one was simply the textbooks of 
the Palestinian Authority and Jordan, a mixture of both. 
Unfortunately, the Israeli Government turned a blind eye to all 
that, and now it is changing its position.
    But, you know, when Abbas declares the prisoners are our 
top priority, this is a message. The money is not coming as 
some social welfare. It is ideological money. It conveys a 
message that the fight is the top priority, even though we are 
not doing it for now. But it is in violation of Oslo, and from 
Oslo they got the recognition from all the other nations. So I 
don't expect----
    Mr. Sherman. I will just point out, if you give the PA 
cash, you don't know how they will spend it. If you give them 
textbooks, we at least know that they can't be misused. Whether 
they will be actually used, I don't know.
    And, Mr. Chairman, I believe my time has expired.
    Chairman Royce. Your time has expired, but I must confess 
that is a good idea, to supplant the textbooks with the funding 
and other forms of education.
    Let me go then to Mr. Ted Yoho of Florida. Thank you.
    Mr. Yoho. Thank you, Mr. Chairman.
    And I appreciate the panel being here.
    And I think that is good idea, to follow up on textbooks.
    Let's see. The meeting today was ``Financially Rewarding 
Terrorism in the West Bank.'' And that is exactly what we see 
with the Palestinian Authority. I have been here for 3\1/2\ 
years, and it amazes me--because we talk about this--that we 
are rewarding terrorist activities.
    We put in a resolution a year and a half ago, Resolution 
542, that would cease and stop all payments to the Palestinian 
Authority until they stopped doing what they are doing.
    And, you know, I have heard the arguments on both sides of 
this. ``If we stop this, it will open up a vacuum; that vacuum 
will get filled by worse players.'' For 3\1/2\ years, I have 
sat here and watched this discussion, and since 2008 we have 
given approximately $500 million a year to the Palestinian 
Authority in the name of peace. The American people are being 
sold that we are giving this foreign aid to the Palestinian 
Authority in the name of peace--$4 billion, $4 billion of my 
money, of everybody sitting here's money.
    Every person in America has paid $4 billion in the name of 
peace, yet the Palestinian Authority, through their own laws, 
which I find--they have a National Palestinian Fund. And it 
goes on to say, ``Financial support for prisoners is anchored 
in a series of laws and government decrees. The prisoners are 
described as a fighting sector. The financial rights''--the 
financial rights--``of the prisoner and his family must be 
assured.'' ``The financial rights of the prisoner and his 
family must be assured.''
    It also stated that the PA will provide allowance to every 
prisoner without discrimination. Well, I am glad to see they 
don't discriminate. According to the law, the PA must--must--
provide prisoners with a monthly allowance during their 
incarceration and salaries or jobs upon release. They are also 
entitled to exemptions from payments for education, health 
care, and professional training.
    Years of imprisonment are calculated as years of seniority 
of service in PA institutions. Whoever is in prison for 5 years 
or more is entitled to a job in the PA institution. The PA 
gives priority in job placement to people who were involved in 
terrorist activities.
    Does this sound like a policy to bring peace? Does anybody 
want to just make a quick comment? Because I want to go on.
    Mr. Wexler.
    Mr. Wexler. The payments to the terrorists and their 
families are indefensible. A policy for peace, though, is also 
what we have done relatively successfully in terms of training 
Palestinian security forces, which today are the forces that 
work with the Israeli Government to maintain a greater degree 
of security in the West Bank.
    Mr. Yoho. Okay. I hear that. And when we put in this 
resolution, we got some blow-back from the Jewish community 
saying this would be terrible, it would increase more violence.
    And it reminds me of that essay that was written--I am sure 
you guys have heard of it--``The Sheep, the Wolves, and the 
Sheepdogs.'' It was written by a retired Army lieutenant 
colonel, David Grossman. And they said there is a certain 
amount of risk that people are willing to live with. And when 
the sheep knows his enemy is the wolf, they will huddle to one 
side of the pasture because they understand there is a certain 
amount of risk. They are not going to get everybody. But they 
will live with that. But when you introduce an unknown, the 
sheepdog, the sheep don't understand that it is there to 
protect them, so they run over to the wolf, their known enemy.
    And I think that we have a situation here that we know that 
we are giving money in the name of peace. We have a history of 
doing that. And it is not working. And the unknown is what 
happens if we remove that.
    And I want to build on what my colleague Mr. Perry said, 
that I think it would change people's focus and they would have 
to pivot and say, you know what, the Americans are playing 
hardball--I don't want to say ``hardball,'' but very discrete, 
or very direct, and say, if these policies continue, we are 
done.
    You know, the textbooks, as Mr. Sherman brought up, I have 
heard that for 3 years. We are funding hatred. We are funding 
terrorism. And I think if we, as Americans, as the government, 
come out strongly and say our new policy is this, you need to 
make adjustments in the Palestinian Authority and in Israel, 
because we are not going to tolerate this anymore.
    You know, I don't need to remind anybody in here, our 
Government is struggling financially. To spend $6 billion in 
the name of peace, when we can't pay our own veterans and we 
can't do things here, I think is unconscionable. And I will not 
support any money going to the Palestinian Authority.
    Thank you.
    Chairman Royce. Thank you.
    We go now to Brendan Boyle of Pennsylvania.
    Mr. Boyle. Thank you, Mr. Chairman. And as I have said 
previously, the way that you and Mr. Engel lead this committee 
on issues as they relate to Israel's security is admirable and 
reflects the best spirit of bipartisanship when it comes to 
foreign affairs for the United States.
    Just in reflecting on what has been going on recently, the 
300 or so wounded, the 30 Israelis that have been killed in 
these knifing attacks, what has been going on now is 
essentially the slow-motion intifada that, unfortunately, has 
not gotten as much attention around the world as it should.
    And I think that a real turning point was clearly the--
everyone talks about Camp David that succeeded in the late 
seventies. But, really, you could say the one that had the more 
effect was the failed Camp David attempt in 2000, which was 
building up to be the culmination of the Oslo process and a 
two-state solution, recognition on both sides, and resolving 
most of the outstanding issues.
    And when Yasser Arafat walked away from that and went back 
to Ramallah and launched the intifada, it has led exactly to 
where we are today in 2016, 16 years later. And so many people 
have lost their lives and been wounded.
    And so now here we are, in the West and especially the 
United States, trying to get the parties back to an agreement 
that, if you read, say, Dennis Ross' account of it or even Bill 
Clinton's autobiography, it is pretty clear that, whether it be 
next year or 20 years from now, we are probably going to get a 
final resolution that looks a lot more like the 2000 Camp David 
attempt than not.
    So, in terms of getting back to that and how we get back on 
track and recognizing the current configuration of the Israeli 
Government and an 85-year-old Mahmoud Abbas who is seemingly 
not interested in peace at all, I want to return to something 
that was discussed earlier, and that is the Arab Peace 
Initiative. Because one advantage of the whole--wherever anyone 
stood on the Iranian deal, one unexpected, positive, unintended 
consequence was greater cooperation between Israel and its Arab 
neighbors.
    Could that be the genesis of a renewed Arab-led peace 
initiative that would put pressure on the Palestinian 
leadership to finally come to the table? For any of you.
    Dr. Pollock? And then we can go down the table.
    Mr. Pollock. All right, thank you. Thank you for the 
question.
    I would start by saying I hope so but I am skeptical. I 
think it would be in the interest of Arab governments to do 
exactly what you suggest, but I think that they don't see it 
that way. They see it, unfortunately, as risky, at least in the 
short term, and----
    Mr. Boyle. Internally risky----
    Mr. Pollock. Yes.
    Mr. Boyle [continuing]. With their own domestic political 
situation?
    Mr. Pollock. Yes, internally risky. And probably they also 
see it as risky internationally, in the sense of they are not 
sure what they would get for pushing the Palestinians back to 
the table, either from Israel, from the United States, from the 
international community, and so on.
    And so I think that, without getting our hopes up too high, 
it would be worth trying--as I suggested in my written 
statement and briefly in my testimony today, it would be worth 
it for the United States to try to explore with some of our 
Arab allies under what conditions and with what expectations 
and for what returns they would be willing to do exactly what 
you suggested, put pressure on the Palestinians to go back to 
the table.
    There was some sense that I had that President Sisi of 
Egypt, for example, about a month or so ago was preparing to do 
that, and then he seemed to stop because his sense of possible 
changes in the Israeli Government did not materialize.
    Today, as I said in my comments earlier, unfortunately, 
some Arab governments that were more flexible about this 2 or 3 
years ago have walked that back. And you now have, for example, 
the Saudi Foreign Minister, Adel al-Jubeir, stating in Paris, 
where he shouldn't have been in the first place, for that ill-
advised so-called peace conference, stating that the Arab Peace 
Initiative was unchangeable, that they would not negotiate any 
amendments to it or show any flexibility about it.
    That, as I said, is walking back a previous position. But 
if you walk it back in the wrong direction, maybe, just maybe, 
the United States can encourage the Saudis or other Arab 
governments to walk back the walk-back in the right direction, 
which would mean offering Israel a peace initiative to 
negotiate, not to impose.
    Mr. Boyle. Mr. Carmon?
    Mr. Carmon. So thank you for this question because it is a 
crucial one. What holds back the peace process or the chances 
to move ahead? The Arab peace plan, in its original form when 
the Saudis suggested it, did not include the right of return, 
which is a non-starter. Later, in a meeting of the Arab League, 
it was included and, thus, became the Arab peace plan.
    With the right of return, of course, nothing can happen. 
And if it is unchangeable, then there is no change in the Arab 
position. Only with a change on this point can there be 
anything moving ahead.
    And this is also the position of Abbas. Why everything 
stopped? Because he insists on the right of return. When Prime 
Minister Olmert suggested 100 percent of the territory through 
swap of land, what remained there to be holding it back? Only 
the demand for the right of return.
    So, unfortunately, the Arab peace plan is a non-starter as 
long as it is unchangeable. And the tragedy of it is that the 
Saudi Foreign Minister said it, while the Saudis, who initiated 
it--and, in their initial suggestion, it did not include the 
right of return.
    Mr. Wexler. If I may, Mr. Chairman?
    Chairman Royce. Mr. Wexler.
    Mr. Wexler. I think the proper construct is this. And your 
point is excellent. From 1948 until the Israeli-Egyptian Peace 
Treaty, the entire focus of the region was regional war against 
Israel. When Israel made peace with Egypt, the prospect of 
regional war diminished substantially. When Jordan and Israel 
made peace in 1993-1994, the likelihood of regional war 
essentially was extinguished.
    With the Arab Peace Initiative, I think both Dr. Pollock 
and Mr. Carmon are correct, but I don't think that should be 
the ultimate message. Yes, skepticism; yes, look at the fine 
print, and it is not where it needs to be. But with the advent 
of the Arab Peace Initiative, we went from the reality of 
regional war against Israel to the prospect--in its infancy, 
admittedly--the prospect of regional peace.
    Now, where I would beg to differ with Mr. Carmon is, in 
looking at the language of the right of return in the Arab 
Peace Initiative, is it where Israel would need it to be to 
ultimately agree? Of course not. But the actual language is 
``just and agreed.'' And the Arab position--and I am not 
suggesting we accept it, but the Arab position is that, by 
adding the word ``agreed,'' they were recognizing that there 
would be no right of return unless Israel agreed. And, of 
course, Israel would never agree to hundreds of thousands of 
Palestinians coming into Israel, so, therefore, they were 
making a concession.
    Whether it is true or not is not the point. The point is it 
is an opening. It is an opening that should be explored.
    And, with all due respect, saying that we know that the 
Arab Peace Initiative is not amendable or not changeable--well, 
we know it is, because they came a year and a half ago or 2 
years ago and made a change, in terms of they went from ``1967 
lines'' to ``1967 lines with limited territorial swaps.'' 
Again, not where the Israelis need to be, but movement in the 
correct direction.
    Chairman Royce. Okay. Mr. Ron DeSantis of Florida is next.
    Mr. DeSantis. Thank you, Mr. Chairman.
    I thank the witnesses.
    This is really a frustrating issue because we have been 
raising it time and time again, and I really appreciate, Mr. 
Carmon, your testimony laying it out. These are huge payments 
that are going to Palestinian terrorists. When you start 
talking about people who have committed really heinous acts and 
they are raking in $3,100 a month, for a Palestinian Arab, that 
has to be better than 99 percent of the people who don't have 
access, who don't own an oil field in the whole Middle East. So 
that is major, major money.
    And what that evidences is an unambiguous policy to promote 
terrorism. It is really no different than what this committee 
rightfully will criticize the Government of Iran for doing, 
sponsoring terrorism. And this Congress has responded to that 
with sanctions in a variety of contexts to counteract Iran's 
policy of support for terrorism. And we really have something 
similar here, and I think we need to act to try to change the 
policy.
    Mr. Carmon, you made the point, in 2014 there was the 
policy change, that these payments no longer came from the 
Palestinian Authority and they are done from the PLO. Why did 
they make that change?
    Mr. Carmon. It was under the pressure of donor countries.
    Mr. DeSantis. Because the donor countries don't want to be 
accused of funding the payments to terrorism.
    Mr. Carmon. Absolutely.
    Mr. DeSantis. However, money is fungible. There is a 
certain amount of things they have to do. So if you then say 
the terror payments will come out of the PLO, that just means 
that some of the money that the PA is getting will go to other 
things. If that money was removed, because you are still 
funding terrorists and you are still paying them, then they 
would have to make decisions.
    And so I don't think that any of these countries can have a 
clear conscience simply because they have kind of shuffled the 
deck chairs around a little bit and are saying, well, no, it is 
actually not from the PA. This is all being worked together.
    And I think that this is one example, but correct me if I'm 
wrong--I think your organization has reported on this. Doesn't 
the Palestinian Authority lionize terrorists by doing things 
like naming parks and sports stadiums after them?
    Mr. Carmon. Definitely. The message is respect--
legitimatization, respect, and even hero-ization of those who 
are involved in these acts.
    Mr. DeSantis. And I also note, I know there are varying 
views of Mr. Abbas on this panel for sure, on the Foreign 
Affairs Committee, but this is a guy whose dissertation was in 
Holocaust denial. And you can say that he is not as bad as some 
of the other guys, like Hamas or whatever, but this is not 
necessarily somebody who is a full-fledged supporter of a 
lasting peace.
    And I think incitement has really become endemic to this 
culture. You look at not only the textbook, some of the 
programming, and the viciousness with which they attack Jews, 
particularly Israeli Jews, but people that are different from 
them, I think is just absolutely horrifying.
    And I was very, very disgusted to see, after this Tel Aviv 
attack in June, brutal attack at this cafe, you had people in 
the Gaza Strip, Palestinian Arabs, and in the West Bank, they 
were cheering that. Isn't that correct, Mr. Carmon? That was 
cause for celebration?
    Mr. Carmon. There was, yes.
    Mr. DeSantis. So I appreciate a lot of the comments that we 
have heard. I know there is this complicated issue, there are a 
lot of things. But, to me, the overriding problem is the 
behavior of not just the Palestinian Authority or Hamas per se, 
but really the majority impulse in the culture is one that 
simply does not recognize Israel's right to exist as a Jewish 
state and really doesn't seek a two-state solution, to the 
extent they want that as something for a lasting peace, but 
really as one step in the direction to ultimately seek Israel's 
destruction.
    And until those underlying dynamics change, I don't think 
you are going to see a lot of possibility to--because here is 
the thing. There is difference of opinion in Israel, but the 
Israeli population has showed time and time again they are 
willing to make very significant concessions to achieve a 
lasting peace. And I have no doubt about that. And I know 
people can criticize this policy or that policy coming out of 
the government. But that is just, to me, unquestioned. It is 
not even close that the Palestinian Arabs have demonstrated 
that in any type of broad sense.
    So here we are with the funding issue. I don't think we can 
allow tax dollars to be going to this entity knowing that they 
are working in cahoots with the PLO and that these payments are 
being made. Not only is it when you subsidize something, you 
are going to get more of terrorism, but it is also just the 
moral blot of any entity that wants to reward this type of 
activity, I think, is something that we absolutely cannot have 
anything to do with.
    So I really appreciate the chairman calling the hearing. I 
have enjoyed listening to all the witnesses and their 
testimony. And I yield back.
    Mr. Pollock. Mr. Chairman?
    Chairman Royce. Yes, Dr. Pollock.
    Mr. Pollock. Yes, if I may, I know that we have used up a 
lot of time. I want to just end with this comment on my own 
behalf.
    I would suggest trying to be constructive. If we can 
perhaps reach a consensus that the money that the PA uses to 
fund terrorists and terrorism should be deducted from the 
taxpayer support that the United States provides to them, 
perhaps at the same time it could be transferred to the kinds 
of activities that I suggested that would be constructive for 
both Israel and the PA, for Israelis and Palestinians to 
support--for example, an international fund that would enable 
people-to-people and interfaith dialogue and cooperative 
activities between Israelis and Palestinians on the ground. I 
think that kind of approach might have the virtue of not being 
purely punitive but also constructive.
    Thank you.
    Chairman Royce. Mr. Carmon?
    Mr. Carmon. I believe that this money is ideological money. 
It reflects an ideology which we see in the insistence on the 
right of return.
    I would also like to be positive and suggest that the main 
focus of U.S. foreign policy would be in this respect on 
demanding of the PLO to stop with this nonstarter. Mr. Abbas 
sent his special envoy to the Herzliya conference just a few 
weeks ago, Mr. Ahmad Majdalani, who said there all refugees 
must go back to their ``homes.'' So this is the position, and 
the money is just a reflection of it. This is what has to be 
changed, and of course the money too.
    Chairman Royce. And Mr. Wexler.
    Mr. Wexler. Well, first, Mr. Chairman, I want to thank you 
for what I think has been a terrific discussion, and thank you 
for doing it.
    On the funding question itself, I think we must reiterate, 
though, that the State Department did, if I understand it 
correctly, cut $80 million in Fiscal Year 2015 to the 
Palestinian Authority. So maybe--not ``maybe''--if this 
committee wants to achieve its purpose, then it needs to 
broaden the universe in which our funding is not allowed to go 
ultimately, one way or another, and maybe there is language 
that can accomplish that purpose.
    There is no representative of the Palestinian Government 
here, and I am surely the furthest thing from it. However--and 
we rightfully condemn their heinous actions. This is a good 
example, in terms of the funding.
    But on the right of return, this record would be incomplete 
if it did not include the fact that Mr. Abbas, President Abbas, 
when asked--his hometown is Safed, if I understand it 
correctly. And when he was asked on a public show whether his 
intention was to return to his hometown, he said, ``Yes, as a 
visitor. And I understand I won't live there forever.'' And 
then I understand, afterward, he dialed it back and made it in 
language that might be more agreeable to many in his own 
population.
    I am not trying to color it one way or the other. The point 
I am only trying to make is these are questions of degree. As 
unsatisfactory as they are, they need to be negotiated at the 
negotiation table.
    And I would close with this. Our ultimate goal should be to 
create a dynamic in which the Israelis and the Palestinians can 
agree to a two-state outcome. In the interim, we should 
encourage those independent steps that preserve the likelihood 
or the ability to achieve a two-state outcome when the politics 
of the region allow those two groups to get there.
    Chairman Royce. Well, we appreciate the time of our 
witnesses today.
    As we have heard, if we are to have a real chance at peace, 
the practice--and this is my focus--this practice of 
financially rewarding terror in the West Bank must stop. And 
that includes conversations with Europeans and others. But, 
internationally, it is a nonstarter to have a circumstance in 
which this slaughter continues and it is aided and abetted by a 
system that is paying people and teaching people how to carry 
out murder, how to slay others.
    And I again thank our witnesses.
    And, at this point, we stand adjourned.
    [Whereupon, at 12:37 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
                   
                   
                                 [all]
</pre></body></html>
